   Office of
Inspector General
                      U.S. Department of the Interior


Highlights
Weaknesses Found in
DOI Non-National
Security IT Systems
(page 3)


Employee
Indicted for
Accepting
Contract Bribes            SEMIANNUAL
(page 9)
                             REPORT
Department Issues
First Non-
Procurement
Debarments
(page 10)


Guilty Plea in
Procurement Fraud
Scheme (page 12)

Sentence Pending in
Misuse of Lottery
Funds
(page 15)
                                          October 2001
                       Strength, Unity, Freedom




U.S. Department of the Interior
Office of Inspector General
1849 C Street, N.W.
Washington, D.C. 20240

www.doi.gov
www.oig.doi.gov
Message from the Inspector General



             I am pleased to present the accomplishments and results achieved by the
     Office of Inspector General (OIG) during the period of April 1, 2001 -
     September 30, 2001. This period includes activities focused specifically on
     Department of the Interior (DOI) programs and operations, as well as activities
     that extend beyond DOI - specifically, domestic security. The tragic events of
     September 11, 2001, and the ensuing war on terrorism forever altered America’s
     sense of security and highlighted the importance of our security-related
     responsibilities.

              The Department of the Interior was not immune to the effects of the
     terrorist attacks. Within minutes of the attacks, the Office of Inspector General
     coordinated with DOI Senior Staff for continuity of operations, while every OIG
     investigative field office coordinated with area Federal Bureau of Investigations
     (FBI) offices to offer and provide investigative assistance. Soon after the attack,
     our agents were at the scene of ground zero assisting the New York Fire and
     Police Departments. Nearly one-third of the Office of Investigations’
     investigative staff was dedicated to anti-terrorist task forces throughout the
     country performing various law enforcement functions.

              Despite its current focus on terrorism, the Administration has firmly
     emphasized major management reforms in Government organizations, increased
     accountability in the Government’s financial and management operations, and
     results from program activities. The OIG continues to play a significant role in
     promoting integrity and accountability in the Department’s programs and
     operations. Our accomplishments and activities over the last six months reflect
     our focus on addressing the most serious management and program challenges
     facing the Department.

          Following the mission objectives identified in our Strategic Plan, our audit
     and investigative work over the last six months involved several crosscutting
     issues and management challenges for the Department. Results include findings
     and recommendations related to:

            ♦       Weaknesses in the Department’s non-national security information
                    technology (IT) systems;
            ♦       Continued internal control and management weaknesses identified
                    in financial statement audits;
            ♦       Potential liabilities for sealing oil and gas wells on Indian Trust
                    land;


           Semiannual Report to the Congress: April 1, 2001 - September 30, 2001
Message from the Inspector General (continued)




                 ♦       Continued underpayment of royalties to the Federal Government;
                 ♦       Lack of security and oversight for protecting the integrity of Indian
                         Trust Fund records;
                 ♦       Intensified OIG efforts to identify, prevent, and resolve instances
                         of Government credit card abuses; and
                 ♦       Historic debarment of a grant recipient for misuse of Federal funds.

                 I am also proud to highlight the recognition of two OIG Special Agents.
          The President’s Council on Integrity and Efficiency (PCIE) recently recognized
          these agents for their exemplary efforts exhibited during the investigation of
          widespread oil and gas royalty fraud. I am pleased to have such outstanding staff
          working aggressively to further the mission of the OIG and the Department.

                  The OIG continues its efforts for enhancing communication and
          coordination with the Department and the Bureaus and facilitating more
          collaborative resolutions to problems. We appreciate the continued support given
          to us by the Secretary, the Congress, and the Office of Management and Budget
          for our work. We hope to continue building a stronger foundation to address and
          solve difficult internal control, management and program weaknesses within the
          Department.




                                                 Earl E. Devaney
                                                 Inspector General




              Semiannual Report to the Congress: April 1, 2001 - September 30, 2001
                                                                                                                             Contents



                                                                                                                                   Page

Statistical Highlights.............................................................................................................. ii
   Organization ......................................................................................................................1
   Mission and Top Management Challenges .......................................................................2
Significant Audit Activities and Investigations ......................................................................3
   Department of the Interior ..................................................................................................3
   Bureau of Indian Affairs.....................................................................................................9
   Bureau of Land Management ...........................................................................................12
   Fish and Wildlife Service .................................................................................................14
   Insular Areas.....................................................................................................................15
   Minerals Management Service .........................................................................................18
   National Park Service .......................................................................................................19
   Office of Surface Mining Reclamation and Enforcement................................................21

Ap pendices

 1 - Summary of Audit Activities from April 1, 2001 through September 30, 2001 ..........22
 2 - Reports Issued or Processed and Indirect Cost Proposals Negotiated
     During the 6-Month Period ended September 30, 2001 ...............................................23
        - Internal Audits........................................................................................................23
        - Single Audits..........................................................................................................25
        - Contract and Grant Audits .....................................................................................30
        - Indirect Cost Proposals ..........................................................................................31
 3 - Monetary Impact of Audit Activities from April 1, 2001 through
     September 30, 2001 ......................................................................................................37
 4 - Non-Federal Funding Included in Monetary Impact of Audit Activities
     During the 6-Mon th Period ended September 30, 2001...............................................38
 5 - Audit Resolution Activities...........................................................................................39
        - Table I - Inspector General Reports with Questioned Costs..................................39
        - Table II - Inspector General Reports with Recommendations that
           Funds be Put to Better Use ....................................................................................40
        - Table III - Inspector General Reports with Lost or Potential
           Additional Revenues .............................................................................................41
 6 - Summary of Reports over 6 Months Old Pending Management Decisions .................42
        - Internal Audits........................................................................................................42
        - Contract and Grant Audits .....................................................................................43
        - Single Audits ..........................................................................................................44
 7 - Summary of Internal Reports over 6 Months Old Pending Corrective Action.............48
 8 - Summary of Insular Area Reports over 6 Months Old .................................................52
        - Internal Audits........................................................................................................52
        - Contracts ................................................................................................................53
        - Single Audits ..........................................................................................................54
 9 - Statutory and Administrative Responsibilities..............................................................58
10 - Cross-References to the Inspector General Act ............................................................59



              Semiannual Report to the Congress: April 1, 2001 - September 30, 2001
                                                                    i
Statistical Highlights




Audit Activities and Impacts
  Reports Issued ........................................................................................................................ 24
     - Internal Audits ........................................................................................................ 21
     - Contract and Grant Audits ........................................................................................3
  Single Audits Processed....................................................................................................... 161
  Indirect Cost Proposals Negotiated ...................................................................................... 168
  Total Monetary Impact.................................................................................................... $109.7
     (Dollar Amounts in Millions)
       - Questioned Costs ..................................................................................................... $5.7
       - Recommendations that Funds be Put to Better Use ............................................ $102.3
       - Lost or Potential Additional Revenues.................................................................... $1.7
     Internal Audit Recommendations Made .............................................................................. 122
     Internal Audit Recommendations Resolved ........................................................................ 104

Investigative Activities
   Cases Closed this Period ...................................................................................................... 108
   New Cases Opened ................................................................................................................ 99
   Hotline Complaints/Inquiries Received ............................................................................ 1,470

Criminal Investigative Activities
   Indictments/Informations ....................................................................................................... 13
   Convictions ............................................................................................................................ 18
   Sentencings ............................................................................................................................ 14
     - Jail ........................................................................................................................... 80 mos.
     - Probation/Supervised Release ............................................................................... 448 mos.
     - Community Service ................................................................................................. 130 hrs.
   Criminal Judgments/Restitutions ................................................................................ $520,984
   Criminal Matters Referred for Prosecution this Period ......................................................... 27
   Criminal Matters Declined this Period................................................................................... 15

Civil Investigative Activities
   Civil Referrals .......................................................................................................................... 2
   Civil Recoveries .......................................................................................................... $640,000
   Civil Declinations .................................................................................................................... 2

Administrative Investigative Activities
  Administrative Actions........................................................................................................... 35




                    Semiannual Report to the Congress: April 1, 2001 - September 30, 2001
                                                                          ii
                           Office of Inspector General, Department of the Interior
                                                                         O rganization


                                    Inspector General


                                          Deputy
                                     Inspector General




            Office of
         General Counsel




Assistant Inspector    Assistant Inspector       Assistant Inspector   Assistant Inspector
   General for            General for               General for           General for
      Audits          Management & Policy        Program Integrity       Investigations

  Deputy AIG               Deputy AIG               Deputy AIG            Deputy AIG




          Semiannual Report to the Congress: April 1, 2001 - September 30, 2001
                                             1
Introduction



                                                         Mission
               The mission of the Office of Inspector General (OIG) is to promote
       excellence in the programs, operations and management of the Department of the
       Interior.

                                                  Responsibilities
              The OIG is responsible for independently and objectively identifying risks
       and vulnerabilities that directly impact, or could impact, the Department’s ability
       to accomplish its mission. We are required to keep the Secretary and the
       Congress fully and currently informed about problems and deficiencies relating to
       the administration of Departmental programs and operations. Effective
       implementation of this mandate addresses the public’s demand for greater
       accountability in the administration of Government programs and operations and
       the demand for programs that work better, cost less, and get the results Americans
       want.

                                                         Activities
               The OIG accomplishes its mission through conducting audits, evaluations,
       and investigations relating to programs and operations of the Department. The
       OIG has reorganized and re-engineered its internal operations to provide higher
       quality products and services in areas that are of the highest priority and provide
       the greatest return on investment.


                     TOP MANAGEMENT CHALLENGES OF THE
                          DEPARTMENT OF THE INTERIOR
                                               As Reported to the Congress

      •   Maintenance of Facilities and Cultural Resources*
      •   Procurement/Contracts/Grants
      •   Health and Safety
      •   Information Technology
      •   Resource Protection and Restoration
      •   Responsibilities to American Indians and Insular Areas
      •   Financial Management
      •   Revenue Collections
      •   Government Performance and Results Act

      * Although Cultural Resources were contemplated when the Top Management challenges were published, they were
      not explicitly included. Cultural Resources are added here for clarity.




             Semiannual Report to the Congress: April 1, 2001 - September 30, 2001
                                                                2
                                       Significant Audit Activities and Investigations
                                                            Department of the Interior



                                  In our first annual evaluation of the Department of the
                          Interior’s (DOI) non-national security Information Technology (IT)
                          systems, as required by the Government Information Security Reform
                          Act, we concluded that the Department does not have adequate
                          security policies, procedures, or controls to protect all information
                          systems supporting DOI operations and assets. We found inadequate
                          risk assessments and security plans that were not current, maintained,
                          or followed. We also determined that security programs were not
Weaknesses Found
in DOI                    established or evaluated for all bureaus, and employees were not
Non-National              consistently trained on their IT security responsibilities. Those
Security IT               bureaus that did not include IT security in their budget requests need to
Systems                   do so. We considered these inadequacies material weaknesses that
                          require an action plan that identifies the personnel, tasks, and resources
                          needed to correct the deficiencies.


Department                     In the past year, OIG intensified its efforts to identify, prevent,
Continues                 and resolve instances of Government credit card abuses, and the
Effort to Stop            Department has responded in kind. More than 40 cases were resolved
Credit Card               by Departmental bureaus with administrative action, and three were
Abuses                    criminally prosecuted. Disciplinary actions were taken ranging from
                          reprimands to removals. In an effort to prevent credit card abuses, our
                          Investigative staff provides fraud awareness briefings to DOI
                          employees and managers. In addition, our three top Regional law
                          enforcement managers were invited to make a presentation at the
                          biannual Acquisition and Property conference sponsored by the
                          Department. They conveyed their experience and expertise to assist
                          managers in guarding against employee misuse, identifying fraud
                          indicators, and detailing the available criminal and administrative
                          remedies.




           Semiannual Report to the Congress: April 1, 2001 - September 30, 2001
                                              3
Significant Audit Activities and Investigations
Department of the Interior




DOI Faces                          OIG estimated that DOI could face a potential liability of as
Potential                 much as $584 million to plug abandoned oil and gas wells on Indian
Liability for             trust lands. Oil and gas companies leasing Indian trust lands are
Sealing                   required to obtain sufficient bonding to cover all lease terms, including
Oil and Gas               plugging abandoned wells and reclaiming the trust lands. We rec
Wells                     ommended that the Bureau of Land Management (BLM) and the
on Indian Trust           Bureau of Indian Affairs (BIA) work together to ensure that this is
Lands                     accomplished.

                                  BLM is responsible for determining DOI’s financial risk for
                          wells on Indian trust lands and providing that information to BIA.
                          BIA should determine the amount of bonding needed to protect DOI
                          from liability should the oil or gas company owner/operator default on
                          the lease. DOI must be especially vigilant when large, well-capitalized
                          oil and gas companies assign leases to smaller, less-capitalized oil and
                          gas companies. BIA and BLM have been reluctant to enforce bonding
                          requirements because enforcement might constrain economic
                          development of Indian trust lands or permanently close wells.

                                  BIA agreed with our recommendations to ensure that sufficient
                          bonding is obtained and oil and gas company assignors and assignees
                          are held jointly liable for leases. BIA also agreed to determine
                          whether it had legal authority to establish a contingency fund to protect
                          DOI from potential liability in those cases where companies do not
                          have sufficient bonding. Although BLM concurred with the
                          recommendation to ensure that the financial liability of all lessees is
                          reviewed, it did not indicate the specific actions it would take to
                          implement the recommendation. We requested BLM to reconsider its
                          response.




           Semiannual Report to the Congress: April 1, 2001 - September 30, 2001
                                              4
                                      Significant Audit Activities and Investigations
                                                           Department of the Interior

Potential
Royalty                          In recent meetings, we advised the Minerals Management
Underpayments            Service (MMS) and the State and Tribal Royalty Audit Committee of
                         issues which may result in the underpayment of royalties under the
                         Stripper Oil Well Royalty Rate Reduction Program. This Program
                         provides economic incentive for operators to maintain or restart
                         production of marginal or uneconomic oil wells. Our key concerns
                         were:

                                •   An incorrect and lower royalty rate will result if operators
                                    blend oil with condensate, a lighter grade of hydrocarbon
                                    fluid not eligible for the royalty rate reduction program.
                                •   A reduced royalty rate and a lower average daily
                                    production rate will result if the monthly reporting of
                                    production and injection days exceed the actual number of
                                    days the wells are in operation.
                                •   Reduced royalty rates result when single well bores
                                    (producing from two or more oil formations) are counted as
                                    multiple wells. This increases production days and lowers
                                    average daily production rates.

                                 We also provided in-depth training on methodologies for
                         detecting underpayments to auditors from several states, including
                         New Mexico and Wyoming. The New Mexico, California, and other
                         state auditors have pursued these issues at several properties and have
                         issued letters for underpayments of royalties of more than $1.6 million.
Bureau Financial
Statement Audits             We issued unqualified opinions on the Bureau of Reclamation
Indicate Internal        (BOR), Geological Survey (GS), Bureau of Indian Affairs, and the
Control Weaknesses       Departmental Offices (DO) financial statements for fiscal year 2000.

                                Fish and Wildlife Service’s (FWS) principal financial
                         statements for fiscal year 2000 were fairly presented except for the
                         undelivered orders’ recorded balances on the Consolidated Statement
                         of Budgetary Resources. Deobligation of undelivered orders needs to
                         be performed in a timely manner.

                                 Minerals Management Service did not submit their principal
                         financial statements for fiscal year 2000 on time, therefore, we did not
                         express an opinion. We did, however, issue an unqualified opinion on
                         MMS’ Statement of Custodial Activities.


          Semiannual Report to the Congress: April 1, 2001 - September 30, 2001
                                             5
Significant Audit Activities and Investigations

Department of the Interior
Bureau Financial               The financial statement audits identified the following internal
Statement Audits          control weaknesses:
Indicate Internal
Control Weaknesses               •   Construction-in-progress was overstated. The general
                                     ledger control accounts incorrectly included: costs for
(continued)                          completed projects, costs that should have been expensed
                                     when incurred, costs for land that should have been
                                     recorded in the standard general ledger for land, costs for
                                     grants that should have been expensed, and costs for
                                     projects where the construction had been placed in
                                     abeyance. (FWS, BOR, BIA, DO)

                                 •   Unliquidated obligations were not timely deobligated or
                                     adequately supported. (FWS, BOR, GS, MMS, DO)

                                 •   Liabilities were not properly accrued at year-end and not
                                     reported within the appropriate accounting period. (FWS,
                                     MMS, BIA)

                                 •   Security and general controls over financial management
                                     systems were not adequately established or operating
                                     effectively to ensure that sensitive or critical financial data
                                     or systems were safeguarded. (FWS, MMS, BIA)

                                 •   Deferred maintenance amounts were inadequately
                                     supported. (FWS, BIA)

                                 •   Property, plant, and equipment balances in subsidiary
                                     ledgers were not recorded in accordance with Federal
                                     Financial Accounting Standards. (FWS, GS, MMS, BIA)

                                 •   MMS financial management and accounting processes
                                     were inadequate, resulting in fiscal year 2000 financial data
                                     that were inaccurate, incomplete, and late. As a result,
                                     critical milestones for the preparation of its fiscal year 2000
                                     statements were missed, resulting in the OIG being unable
                                     to complete its audit.

                                 •   FWS grant payment records did not support that the
                                     drawdowns taken by grantees were for costs incurred
                                     during fiscal year 2000. Currently, the Department is
                                     working with other Federal agencies as part of the
                                     Interagency Electronic Grants Committee to develop and
                                     implement electronic processes to correct this issue.

                               The DOI is working with the bureaus to initiate corrective action
                          on these weaknesses.


           Semiannual Report to the Congress: April 1, 2001 - September 30, 2001
                                              6
                                       Significant Audit Activities and Investigations

                                                         Department of the Interior
Problems Persist                  Financial statements for fiscal year 2000 and 1999 trust funds
in Trust Fund             held by DOI for Indian tribes and individual Indians were not accurate.
Financial                 As a result, the certified public accounting firm that conducted the
Statements                audit qualified its opinion because of irreconcilable differences of
                          about $35 million between recorded cash balances and the balances
                          reported by the U.S. Treasury as of September 30, 2000 and 1999;
                          inadequacies in various Indian trust fund accounting systems;
                          inadequate records and weaknesses in internal controls; and
                          disagreements with individual Indians about their trust fund balances.

New OIG Unit                        OIG’s Audit Quality Assurance and Follow-up Unit completed
Reviews Audit             its first review cycle of OIG audit recommendations. We examined
Recommendations           actions reportedly taken to recently implement six recommendations
                          in four audit reports and found that two of the recommendations had
                          not been fully implemented. After the Unit met with the Department
                          and the affected bureaus to discuss their findings, the Department
                          reinstated one recommendation as unimplemented and the affected
                          bureau provided additional information to show that corrective actions
                          were being taken for the other recommendation.

DOI Performance                    At the request of the Chairman of the U.S. House of
Measures                  Representatives Committee on Government Reform, we reviewed ten
Need Clarification        significant Fiscal Year 2000 DOI performance measures. We
                          concluded that the performance measures, such as fair return of value
                          to the public on minerals, provided useful information on major DOI
                          activities to decision makers and the public. Many of the measures,
                          however, need to be clarified, expanded to include other bureaus, or
                          supplemented with additional information to explain the significance
                          of the measure and to better describe reported accomplishments. For
                          example:

                             •   The measure for meeting water resource needs was to deliver
                                 or release the amount of water contracted-for from BOR-
                                 owned and operated facilities, expected to be no less that 27
                                 million acre-feet. Although meeting water commitments is
                                 important, the quantity of water delivered in any given year is
                                 weather-dependent, and water commitments are generally
                                 established annually based on the water supply. Therefore, the
                                 BOR should always be able to meet its water delivery goals.




           Semiannual Report to the Congress: April 1, 2001 - September 30, 2001
                                             7
Significant Audit Activities and Investigations

Department of the Interior

DOI Performance               •   The measure for acres of land restored was to enhance or
Measures                          restore 237,000 acres of mined lands, refuges, parklands, and
Need Clarification                forests. It could be improved by also showing the total number
(continued)                       of acres in need of restoration and by defining “restoration.”

                              •   The measure for number and percentage of cultural properties
                                  in good condition was for the National Park Service (NPS) to
                                  maintain 47 percent (10,900 of 23,167) of structures in good
                                  condition and 35 percent (83 of 236) of landscapes in good
                                  condition against the baseline. For this measure to be more
                                  meaningful it should be expanded to include all bureaus re-
                                  sponsible for restoring cultural properties and be expanded to
                                  include resources.



Website Information                 In a review mandated by the Treasury and General
Appropriately              Appropriations Act of 2001 which requires that Congress be informed
Collected and Used         about information that personally identifies Government web site
                           users, we determined that, with some exceptions, DOI Web page
                           visitors were appropriately informed on how the information would be
                           used. While not all of DOI’s 6,000 Web pages collected this
                           information, our review of 598 Web pages discovered that 84 did. Of
                           those 84 pages, 67 revealed that user information was collected and
                           how it would be used. The remaining 17 pages did not reveal this
                           information, but asked users to submit comments, feedback, or
                           personal information when submitting applications for positions,
                           registering for conferences, or downloading application software.

                                   In addition, we tested five third-party contractors that collected
                           personally identifiable information. Three of the five did not disclose
                           all uses of the collected information.




            Semiannual Report to the Congress: April 1, 2001 - September 30, 2001
                                               8
                                      Significant Audit Activities and Investigations
                                                               Bureau of Indian Affairs
                                  The sudden death of a BIA employee responsible for
                         maintaining the financial data and program files associated with
                         distribution of Indian Trust funds to members of the Pine Ridge Indian
                         Reservation in South Dakota prompted an investigation leading to the
                         discovery of questionable security measures, lack of oversight, and
                         insufficiently trained personnel, which potentially compromised the
                         integrity of Trust fund records. Each November the BIA Pine Ridge
                         Agency makes the annual distribution of nearly $3 million in grazing
                         lease revenues, held in trust by the BIA for approximately 13,000 Pine
                         Ridge Reservation residents. The deceased was the sole Agency
                         employee trained in the data maintenance and program files needed to
                         complete the distribution. A Trust Resource Specialist from the Office
                         of the Special Trustee, Office of Trust Fund Management, attempted to
                         complete the distribution and discovered that the employee had
                         downloaded critical data to diskettes, which were part of the personal
Indian Trust Fund        effects removed by the deceased’s family. The records were recovered
Vulnerability            and no destruction or tampering was revealed. Based on a
Discovered               management implication memorandum issued by our Office of
Following the            Investigations, BIA implemented significant preventative measures. A
Unexpected               recent BIA directive requires that all Trust data be stored on the proper
Death of a BIA           secured server and that periodic site reviews be conducted to ensure
Employee                 compliance. In addition, BIA mandated that each agency dealing with
                         the range and leasing programs have more than one properly trained
                         employee and that no simultaneous leave be approved for those main-
                         taining the database records. Lastly, BIA directed that a supervisor, or
                         designated official must ensure that no Trust records, data, papers or
                         memoranda are removed from BIA facilities during an employee out-
                         processing period.

BIA Employee                     Herman G. Fisher, former Safety and Occupational Health
Indicted for             Specialist, Facilities Management and Construction Center, BIA,
Demanding                Albuquerque, New Mexico, was indicted by a Federal grand jury on
and Accepting            charges that he demanded and received bribes totaling $20,000 from
Bribes in                an Albuquerque contractor. The contractor was awarded a
Exchange for             $5.6 million contract to provide portable classrooms throughout Indian
Contract                 country, and according to the indictment, on four separate occasions
Awards                   between December 1999 and May 2000, Fisher demanded and
                         received bribe payments totaling approximately $20,000 in exchange
                         for Fisher facilitating the approval of payments to an Albuquerque
                         contractor. The contractor cooperated with the joint OIG and FBI
                         investigation. Fisher entered a plea of not guilty in the U.S. District
                         Court, District of New Mexico, and his trial is pending. Fisher retired
                         from Federal service after the BIA proposed to terminate him.


          Semiannual Report to the Congress: April 1, 2001 - September 30, 2001
                                             9
Significant Audit Activities and Investigations
Bureau of Indian Affairs

BIA Employee                       An OIG audit of the BIA credit card activity revealed that
Resigns                    Sylvia “Cookie” Poblano, former secretary, Southwest Regional BIA
while Awaiting             Office, Albuquerque, New Mexico, misused a Government-issued
Sentence                   credit card. The resulting investigation disclosed that on 43 occasions
for Theft in               between February 1999 and August 2000, Poblano charged nearly
Government                 $14,000 in personal expenses on her government credit card. In order
Credit Card Scheme         to conceal the purchases, Poblano, using the names of legitimate
                           companies with which the BIA conducts business, created and
                           submitted a series of falsified invoices to BIA officials. Following her
                           guilty plea to charges of theft, Poblano was sentenced in U.S. District
                           Court for the District of New Mexico, to four months of home
                           detention with electronic monitoring and two years of supervised
                           probation. Prior to sentencing, Poblano resigned her position with the
                           Government and full restitution was deducted from her Federal
                           retirement account.

Department Issues                  In a precedent setting measure, the Office of Acquisition and
First Non-                 Property Management debarred the Black Widow Rope Company and
Procurement                its principal officers, Tim and Belinda Chalfant from participating in
Debarments                 Federal business transactions for three years. The Black Widow Rope
                           Company was established, in part, through Indian Business
                           Development grants. The Chalfants received $53,000 in DOI grant
                           money and used more than $23,000 for personal expenditures. The
                           action reflects a successful cooperative effort between OIG and the
                           Office of Acquisition and Property Management under which referrals
                           for debarment action are actively sought and pursued. This is the first
                           debarment of grant recipients in the Department’s history.

Former Haskell                     Gerald T. Burd, former Executive Director and Financial
Foundation                 Controller for the Haskell Foundation, was sentenced in U.S. District
Director Sentenced in      Court for the District of Kansas, to 12 months of imprisonment, 36
Embezzlement               months of supervised release, and ordered to pay restitution in the
Scheme                     amount of $103,980. The Haskell Foundation is a non-profit
                           organization formed to administer gifts and donations to the Haskell
                           Indian University, both of Lawrence, Kansas. Burd embezzled grant
                           and contract funds provided to the Haskell Foundation by BIA Office
                           of Indian Education Programs (OIEP), in part, to be used for
                           improvement studies of BIA elementary and secondary schools. A
                           debarment proposal is pending.




           Semiannual Report to the Congress: April 1, 2001 - September 30, 2001
                                             10
                                       Significant Audit Activities and Investigations
                                                                Bureau of Indian Affairs

Former Pilot of the               Charles Kirkpatrick, former pilot for the Seminole Tribe of
Seminole Tribe of         Florida, pleaded guilty to charges that he embezzled tribal funds.
Florida Pleads            Specifically, Kirkpatrick arranged the purchase of various aircraft on
Guilty to                 behalf of the tribe. After negotiating a purchase price with a broker,
Embezzlement              Kirkpatrick artificially increased the purchase price of each aircraft by
Charges                   several hundred thousand dollars, and took a commission from the
                          difference. At his sentencing hearing, Kirkpatrick told the U.S.
                          District Court, Southern District of Florida, that he wanted to rescind
                          his guilty plea because he did not believe that he had committed a
                          crime. Kirkpatrick’s attorney immediately requested that the Court
                          allow him to withdraw from the case, and the Court appointed a new
                          attorney to represent him. In a subsequent hearing, the judge denied
                          Kirkpatrick’s motion to withdraw his plea, and set a sentencing date.

Former Tribal                      Tribal Comptroller Allan Butterfield and Tribal Accountant
Comptroller               Lou Ann Gordon of the Red Cliff Band of Chippewa Indians (Red
and Former Tribal         Cliff Band) were sentenced in U.S. District Court for the Western
Accountant                District of Wisconsin for their role in a scheme to embezzle
Sentenced for             approximately $925,000 from a tribal bank account and converting
Misapplication            nearly a quarter of a million dollars of the funds to their personal use.
of Tribal Funds           The Red Cliff Band located in Bayfield City, Wisconsin, is an Indian
                          tribal organization that receives more than $1 million in funding from
                          BIA each year. During the investigation, it was discovered that a bank
                          account reserved solely for the distribution of Federal program funds
                          was improperly being used to issue payroll advances to Red Cliff Band
                          employees. None of the advances were repaid. For more than three
                          years, Butterfield and Gordon used a bank account that the tribal
                          council was told had been closed, then disbursed payroll advances
                          from the hidden account to themselves and others within the tribal
                          accounting department. Butterfield was sentenced to 12 months of
                          imprisonment and ordered to make restitution of $108,000. Gordon
                          was sentenced to 18 months of imprisonment and ordered to make
                          restitution of $137,208.

Three Oglala                      Three employees of the Oglala Sioux Tribe’s Financial
Sioux Tribe               Accounting Department were indicted on charges of conspiracy and
Members Indicted          embezzlement by a Federal grand jury in South Dakota. The
in Conspiracy             indictment alleges that Estelle Goings, Director, Vonnie Goings,
Scam                      Deduction Clerk, and Carol Vitalis, Payroll Technician, embezzled
                          more than $97,000 from the tribe by diverting tribal funds to
                          themselves via fictitious payroll advances and fabricated overtime.
                          Trials are pending.

           Semiannual Report to the Congress: April 1, 2001 - September 30, 2001
                                              11
Significant Audit Activities and Investigations
Bureau of Land Management
                                   A comprehensive review was conducted by Investigations and
                           Audits arising from allegations that an employee of the Colorado State
                           BLM office was circumventing procurement regulations and small
                           purchase guidelines. The review identified several areas of needed
                           improvements in the control and oversight of Government credit card
                           purchases and the use of convenience checks by the Colorado State
                           BLM office. Following the issuance of a management implication
Colorado State
                           memorandum by the OIG, the Colorado State BLM office agreed to
BLM Issues
                           strengthen operations and record-keeping statewide. To that end, the
Supplemental
                           BLM issued a June 29, 2001 Instruction Memorandum to all
Policy to Enhance
                           employees, which provided more stringent guidance pertaining to the
the Management
                           monthly credit card statements that requires an amplified review and
of Credit Cards
                           approval process by supervisors, and a five-day reconciliation period
and Convenience
                           for monthly statements by all employees. To ensure consistency
Checks
                           among reviewing officials, the guidance offered a 19-item checklist.

BLM Architect                      Douglas A. Anderson, former lead architect for BLM in
Pleads Guilty to           Arizona, was sentenced in U.S. District Court, District of Arizona, to
Conflict of Interest       six months of electronically-monitored house arrest, 60 months of
in Procurement             probation, and was ordered to pay restitution of nearly $70,000. For
Fraud Scheme               more than a year while working for the BLM, Anderson used his
                           government-issued credit cards for work and services purportedly
                           performed by three businesses he owned. Anderson created the three
                           fictional businesses on paper only, and invented work orders and
                           billing charges to supplement his income. No work or service was
                           ever performed by the companies, and Anderson used the money paid
                           to his companies by BLM to pay his personal debts.

Investment Scam                    In May of 1989, Clive Joe, President, Pan American
Fugitive                   Geological Services, Inc., was found guilty of conspiracy and mail
Arrested after             fraud by a jury in the U.S. District Court, Eastern District of New
Eleven Years               York, following a lengthy OIG investigation into an investment scam
on the Run and             using the BLM’s Simultaneous Oil and Gas Lease Lottery program.
Now Faces                  Joe was released on $100,000 bond but failed to appear for sentencing
Additional Charges         and a bench warrant was issued for his arrest. After more than 11
                           years as a fugitive, local law enforcement arrested Joe for a bad check
                           charge. A fingerprint check revealed his fugitive status, and Joe was
                           taken into custody by the FBI. Joe was subequently indicted by a
                           Federal grand jury with violations pertaining to his flight from the
                           previous conviction. Joe agreed to plead guilty for failure to appear.
                           Joe’s sentencing for this and the previous charges is pending with the
                           same judge that presided over his original trial.

            Semiannual Report to the Congress: April 1, 2001 - September 30, 2001
                                              12
                                                Significant Audit Activities and Investigations
                                                                 Bureau of Land Management
Mining Patent                              Applications for mineral patents will not be processed by the
Applications will                  deadline imposed by Congress. BLM did not complete a sufficient
not be Processed                   number of mineral examinations and therefore the Solicitor’s Office
on Time                            could not complete its review of the applications by the due date of
                                   September 30, 2001.

                                           The General Mining Law of 1872 allows mining claimants
                                   meeting certain requirements to apply for mineral patents. These
                                   patents convey title to the land where a mining claim exists. Except
                                   for certain “grandfathered” applications, Congress subsequently
                                   imposed a moratorium on accepting and processing mineral patent
                                   applications. The moratorium imposed a September 30, 2001 deadline
                                   for processing at least 90 percent of the grandfathered applications.

                                           Our report contained two recommendations: to develop a
                                   timeframe for application processing, and to report the status of
                                   application processing to Congress. BLM and the Solicitor’s Office
                                   agreed to implement the recommendations.

BLM to Arrange                             BLM agreed to a third-party review of its appraisal process to
Peer Review of                     safeguard against the appearance of a conflict of interest or
its Appraisal                      wrongdoing. The issue arose in Washington County, Utah, where
Process                            BLM developed and used an alternative appraisal approach to acquire
                                   land, primarily to protect the endangered desert tortoise. BLM
                                   established the alternative approach as a means of overcoming
                                   landowner resistance to and instilling confidence in BLM’s acquisition
                                   program.

                                           BLM’s alternative approach, however, was risky. As practiced
                                   in Washington County, the appraisal process was not separate from
                                   price negotiations and did not ensure that appraisals were objective
                                   and independent. Prices negotiated in the reviewed appraisals might
Mojave
Mojave Desert
       Desert Tortoise
              Tortoise
Photo
Photo courtesy
      courtesy of
                of Kathie
                   Kathie Meyer,
                          Meyer,   not have been based on estimates of fair market value, as required by
U.S.
U.S. Geological
     Geological Survey
                Survey
                                   Federal land acquisition regulations. Using the alternative approach,
                                   BLM could not preclude the appearance of wrongdoing, such as the
                                   altering of land appraisal values to negotiate a price with the
                                   landowner.

                                           BLM agreed to obtain a peer review of its alternative appraisal
                                   approach and to implement the changes recommended by the peer
                                   review.



                    Semiannual Report to the Congress: April 1, 2001 - September 30, 2001
                                                      13
Significant Audit Activities and Investigations
Fish and Wildlife Service

                                  An FWS employee entered into a Pretrial Diversion Agreement
                          with the United States Justice Department to settle charges that he
                          submitted false documents to FWS pertaining to a Permanent Change
                          of Station move. The employee admitted that he submitted travel
                          vouchers claiming nearly $5,000 for expenses associated with
FWS Employee              qualified family members who relocated with him. In fact, he
Submits False             relocated with and claimed expenses for non-family members. The
Documents in              Pretrial Diversion Agreement provides for deferment of prosecution
Relocation Fraud          for a period of 18 months. During the 18 months deferment period the
Case                      employee was ordered to pay restitution. The employee resigned from
                          the FWS after receiving a notice of proposed removal.




           Semiannual Report to the Congress: April 1, 2001 - September 30, 2001
                                            14
                                        Significant Audit Activities and Investigations
                                                                                 Insular Areas

                                Over $1.2 million of U.S. Virgin Islands lottery funds were not
                         used for authorized purposes or properly collected and deposited.

                             •   Lottery funds totaling $99,102 were used by Anthony Dizon,
                                 former Executive Director, for personal purposes. In addition,
                                 collections totaling $11,930 were not deposited to the lottery’s
                                 account and may have been stolen, and a bank deposit totaling
                                 $40,985 was not credited to the lottery’s bank account and also
                                 may have been stolen.

                                 An ensuing OIG investigation resulted in Dizon pleading guilty
Misuse of                        in U.S. District Court for the Virgin Islands to a charge of wire
$1.2 Million of                  fraud in his embezzlement scheme. His sentencing is pending.
Lottery Funds
                                 In a spin-off investigation, Sonia Foy, another lottery employee,
                                 was charged and pleaded guilty to embezzling nearly $12,000
                                 from the lottery. Her sentencing is also pending.

                             •   Accounts receivable totaling $88,224 were not collected from
                                 dealers and agents for unpaid returned checks and for instant
                                 lottery tickets delivered to business establishments, and instant
                                 lottery funds totaling $916,000 were transferred to the
                                 traditional lottery without proper authorization.

                             •   Funds of $51,000 were used to fund a celebrity golf tournament
                                 and to pay the cost for 30 students to attend youth games in the
                                 United States.

                             •   Licensing fees totaling $3,700 were not collected from agents
                                 who sell instant lottery tickets, and a total of $285 from two
                                 change funds at the instant lottery could not be accounted for.

                                 We also found that unsold instant lottery tickets valued at about
                         $97,000 were not appropriately returned to the contractor for refund and
                         that unsold traditional lottery tickets valued at $14,380 were not
                         accounted for and were unavailable for sale until one day prior to the
                         drawings. As a result, the lottery lost revenues of $111,380 from
                         refunds and potential sales. The report contained 16 recommendations,
                         addressed to the Governor of the Virgin Islands and to lottery officials.
                         The Governor and lottery officials agreed with the recommendations.



            Semiannual Report to the Congress: April 1, 2001 - September 30, 2001
                                              15
Significant Audit Activities and Investigations
Insular Areas
Errors Corrected                  An audit of the U.S. Virgin Islands Department of Education
in Education              payroll system found that controls over the preparation of time and
Payroll System            attendance records, and distribution of payroll checks and direct
                          deposit statements to employees were adequate.

                                  A review of payroll records of 292 employees identified only
                          nine instances of incorrect payments. In these nine cases, Federal
                          funds, rather than local funds, had incorrectly been used to finance
                          payroll expenses. Three of the nine errors were corrected by the time
                          our review was completed.

                                  We made three recommendations to strengthen controls over
                          these accounts. The Governor of the Virgin Islands agreed to
                          implement these recommendations.



Economic                         Guam’s Economic Development Authority was found to have
Development               inadequate controls over its loan program funds. Adequate controls
Authority Found to        are needed to deter improper use of funds such as those discovered by
have Inadequate           the audit.
Controls
                                  More than $1.3 million was used to cover the cost of writing
                          off uncollectible loans and to transfer profits of another $1.3 million
                          from a property sale to an operating account. Both of these uses are
                          contrary to legislation and loan program guidance.

                                  The Authority lost over $450,000 and placed $3.6 million at
                          risk of loss because it made loans to a corporation and several
                          businesses that had delinquent loans or leases.

                                 Another $2.3 million in delinquent loans may have been lost
                          and $2.2 million was placed at risk of loss because the Authority
                          approved questionable loans and did not collect delinquent loans.

                                  Recommendations were made describing measures to
                          safeguard against losses from delinquent loans, improve loan
                          collection practices, and strengthen the integrity of the loan process.




           Semiannual Report to the Congress: April 1, 2001 - September 30, 2001
                                              16
                                       Significant Audit Activities and Investigations
                                                                               Insular Areas
High Dollar Losses                The Guam Economic Development Authority needs to
in Tax Revenue            establish controls over its Qualifying Certificate Program, designed to
Forecasted                encourage private sector investment by granting tax rebates and
                          abatements to qualifying businesses.

                                   Nearly $770,000 in tax revenues was lost during a two-year
                          period because unnecessarily generous tax benefits were given to hotel
                          and tourist industry firms. This loss could reach $70.8 million in the
                          future. About $460,000 in improper tax abatements was granted to
                          companies not in compliance with their agreements. Other Guam
                          agencies improperly abated more than $5 million in use taxes without
                          verification of eligibility. Further, $2.3 million of legally mandated
                          investments in Guam’s economy may have been lost because the
                          Authority did not require recipients of tax relief to reinvest their tax
                          benefits.

                                   The report recommended that the Authority seek legislative
                          changes to strengthen Program controls, develop standard operating
                          procedures, provide formal training to Program staff, and coordinate
                          its activities with those of other related governmental agencies.




           Semiannual Report to the Congress: April 1, 2001 - September 30, 2001
                                             17
Significant Audit Activities and Investigations
Minerals Management Service



                                   The President’s Council on Integrity and Efficiency (PCIE)
                          recognized Office of Investigation Special Agents Joseph D. Crook
                          and Patrick M. Murphy for their exemplary efforts exhibited during the
                          investigation of widespread oil and gas royalty fraud with an “Award
                          for Individual Accomplishment.” This annual award recognizes
                          sustained contributions to the PCIE over a period of time and
                          outstanding leadership of projects or events that contribute to the PCIE
                          mission. The agents’ tenacious approach to these highly complex and
PCIE Recognizes           labor-intensive investigations resulted in the recovery of $473.3
Outstanding               million since August 1998 and nearly $200 million during the past 12
Investigative             months. The magnitude of this program and the potential for the
Achievement               significant loss of revenues compelled the OIG to identify fraud in the
                          Department’s royalty program as a major OIG initiative in high-risk
                          programs. These efforts have been assisted by the MMS and the U.S.
                          Department of Justice.

First Settlement on               In August 2001 the BP Corporation North America, Inc.,
Carbon Dioxide            agreed to pay $365,000 to the U.S. Government to resolve claims
Gas Royalty               under the False Claims Act that they underpaid royalties to the MMS
Underpayment              for carbon dioxide gas produced from Federal lands in New Mexico
                          between 1994 and 1997. This was the OIG’s first such settlement
                          related to carbon dioxide gas production. This continuing effort by the
                          Department of Justice, MMS and the OIG has resulted in the recovery
                          of nearly $485 million since 1998 in underpayments of royalties on
                          gas, crude oil, and coal from Federal and Indian lands. Investigations
                          of additional companies are ongoing.

Contractors Costs                 MMS awarded a cooperative agreement to perform audits and
Questioned                related investigations of oil and gas leases to the Ute Indian Tribe. Of
                          the $1.3 million billed by the Tribe, we took exception to about
                          $132,000 of indirect costs because the Tribe did not have an approved
                          negotiated indirect cost rate for the periods billed. MMS agreed with
                          the audit finding, and stated that the cost exceptions will be resolved
                          after the Tribe submits indirect cost rate proposals to its cognizant
                          federal agency for the affected years.




           Semiannual Report to the Congress: April 1, 2001 - September 30, 2001
                                             18
                                       Significant Audit Activities and Investigations
                                                                   National Park Service

                                   Sharon Herring, a former secretary at the Recreation
                          Conservation Division, NPS, was sentenced in U.S. District Court,
                          District of Georgia, for falsely claiming more than $34,000 in overtime
                          hours on her time and attendance forms. For more than a year, Herring
                          submitted the overtime hours for work she allegedly performed at the
                          Southern Area Coordination Center. The Southern Area Coordination
Former NPS                Center is a multi-agency task force assigned to handle emergencies
Secretary                 that include forest fires, hurricanes, and tornadoes. In one pay period
Falsified Payroll         alone, Herring claimed 320 hours of overtime. Herring was sentenced
Records to Obtain         to six months of house arrest, and five years of probation. In addition,
Money for                 Herring was ordered to make restitution of $34,487, which she paid in
Overtime Never            full at the time of sentencing, and to pay a fine of $2,000.
Worked

Former NPS                        David Jones, former NPS Supervisory Botanist, Everglades
Supervisor                National Park, Miami, Florida, was sentenced in the Circuit Court of
Sentenced to              the Eleventh Judicial Circuit for Dade County, Florida, to five years of
Five Years                imprisonment as a result of his conviction for theft of two government
Imprisonment in           issued credit cards and misuse of his agency issued credit card. Over a
Government                four-month period beginning in October 2000, Jones used two
Credit Card               government credit cards that he stole from NPS vehicles, and his
Scheme                    agency issued credit card, to make more than $13,000 in unauthorized
                          purchases and automated teller machine withdrawals. The
                          investigation revealed that Jones used the credit cards to purchase
                          goods that he would sell for cash, which he then used to purchase
                          drugs. After imposing a five-year sentence, the Court agreed to reduce
                          the sentence to four months of incarceration and 12 months of house
                          arrest at a residential drug treatment facility, provided that Jones
                          surrender to the rehabilitation facility within one week. In addition,
                          the Court ordered Jones to make restitution in the amount of $13,596.
                          Administrative action by NPS is pending.

NPS Maintenance                    Ivan Jones, former Maintenance Worker, National Capital
Worker Pleads             Parks East, NPS, Washington, D.C., pleaded guilty in U.S. District
Guilty to                 Court for the District of Columbia, to charges that he stole
Submitting                Government funds by submitting false trial subpoenas to his
False Trial               supervisor to justify receiving paid leave. Over nearly two years,
Subpoenas                 Jones submitted numerous fabricated Superior Court of the District of
to Supervisors            Columbia felony criminal trial witness subpoenas to his immediate
                          supervisor at the NPS. The supervisor subsequently granted more than
                          six weeks of paid administrative court leave to which Jones was not
                          entitled. Jones resigned his position with the NPS, and is awaiting
                          sentencing.

           Semiannual Report to the Congress: April 1, 2001 - September 30, 2001
                                             19
Significant Audit Activities and Investigations
National Park Service

NPS Maintenance                      Addison Fair, former NPS Maintenance Worker, Sharpsburg,
Worker Admits to            Maryland, pleaded guilty following his indictment for improperly
Fraudulently                receiving more than $50,000 in disability retirement benefits under the
Obtaining                   Department of Labor, Office of Worker’s Compensation Program.
Disability Benefits         Fair, who was allegedly injured while on the job at NPS, submitted
                            false reports to the Department that he was not working and earned no
                            income when, in fact, he was employed as a limousine driver. Fair
                            also falsified his application for employment with the NPS by
                            certifying that he had not been previously convicted of a crime when,
                            in fact, he had a conviction in 1994. Sentencing is pending.

Contractor’s Costs                  NPS awarded a $23.7 million cost-plus-fixed-fee contract for
Questioned                  the renovation of utilities at an historic site. We took exception to
                            about $110,000 in overhead costs billed by the contractor. The
                            contractor applied its overhead rate to the subcontractors’ cost when
                            submitting the subcontractors’ bill to NPS for payment. The $110,000
                            resulted from applying the contractors’ overhead rate to the cost
                            exceptions identified during our audits of the subcontractor. NPS is in
                            the process of resolving the cost exceptions with the contractor.




            Semiannual Report to the Congress: April 1, 2001 - September 30, 2001
                                              20
                                       Significant Audit Activities and Investigations
                   Office of Surface Mining Reclamation and Enforcement

                                  Office of Surface Mining (OSM) has improved controls over
                          its automated information systems by implementing prior OIG
                          recommendations.

                                  As recommended, OSM conducted risk assessments, reviewed
                          system access procedures, provided for notification of users’
                          employment status changes to system administrators, provided for
                          separation of duties for certain personnel involved in monitoring
                          system access, and enforced procedures for software development and
                          management control changes.

OSM Improves                       However, OSM has not completed its contingency plans or
General Controls          tested its Continuity of Operations Plan. In addition, they need to base
in Automated              classification of sensitive positions on the risks and duties of those
Information               positions, strengthen access controls over certain systems, and
Systems                   implement additional controls over remote access connectivity to some
                          information systems.




           Semiannual Report to the Congress: April 1, 2001 - September 30, 2001
                                             21
                                        Appendix 1


                             Summary of Audit Activities
                       April 1, 2001 through September 30, 2001

                                 AUDITS PERFORMED BY:
                                                                     NON-
                                                     OTHER         FEDERAL
                                                    FEDERAL        AUDITORS
                                     OIG STAFF     AUDITORS           (With
                                                       (With       Review and
                                                   Processing by   Processing
                                                    OIG Staff)         by
                                                                    OIG Staff)
                                      Internal
                                        and
                                      Contract
                                     Audits and    Contract and
                                        ICPs*      Grant Audits    Single Audits    TOTAL
REPORTS ISSUED TO:

Department/Office of the Secretary       5               0               1             6

Fish and Wildlife and Parks              2               0               7             9

Indian Affairs                           2               0             120           122

Insular Areas                            5               0              18            23

Land and Minerals Management             7               0               7            14

Water and Science                        3               0               8            11

   Subtotal                             24               0             161           185

INDIRECT COST PROPOSALS NEGOTIATED FOR:

Indian Tribes and Organization         144               0               0           144

Insular Areas                            4               0               0             4

State Agencies                          20               0               0            20

   Subtotal                            168               0               0           168


      TOTAL                            192               0             161           353

*Indirect Cost proposals

            Semiannual Report to the Congress: April 1, 2001 - September 30, 2001
                                              22
                                                    Appendix 2


  Reports Issued or Processed and Indirect Cost Proposals Negotiated
        During the 6-Month Period Ended September 30, 2001
This listing includes all internal, contract and single audit reports issued and indirect cost agreements negotiated during
the 6-month period ended September 30, 2001. It provides report number, title, issue date and monetary amounts
identified in each report (*Funds to be Put to Better Use, ** Questioned Cost, *** Unsupported Cost and **** Lost or
Potential Additional Revenues).



Internal Audits
Bureau of Indian Affairs

2001-I-0385       Independent Auditors Report on the Bureau of Indian Affairs Financial Statements for Fiscal
                  Year 2000 (05/11/2001)

Bureau of Land Management

2001-I-0356       Processing of Mineral Patent Applications by the Bureau of Land Management and Office of
                  the Solicitor (05/23/2001)
2001-I-0406       Evaluation of the Bureau of Land Management’s Control Over Receipts and Disbursement of
                  Funds Derived from Sales Authorized by the Southern Nevada Public Lands Management
                  Act (06/05/2001)
2001-I-0413       Land Exchanges and Acquisitions, Bureau of Land Management Utah State Office
                  (07/31/2001)

Bureau of Reclamation

2001-I-0408       Independent Auditors Report on Bureau of Reclamation Financial Statements for Fiscal Year
                  2000 (06/08/2001)
2001-I-0414       Management Issues Identified During Audit of the Bureau of Reclamation’s Financial
                  Statements for Fiscal Year 2000 (07/17/2001)

Fish and Wildlife Service

2001-I-0410       Independent Auditors Report on the U.S. Fish and Wildlife Service’s Financial Statements
                  for Fiscal Year 2000 (06/22/2001)

Geological Survey

2001-I-0409       Independent Auditors Report on the U.S. Geological Survey Financial Statements for Fiscal
                  Year 2000 (09/06/2001)


                 Semiannual Report to the Congress: April 1, 2001 - September 30, 2001
                                                             23
Appendix 2 (continued)




Guam
2001-I-0417    Loan Programs, Guam Economic Development Authority, Government of Guam
               (09/21/2001) *$10,946,770
2001-I-0419    Qualifying Certificate Program, Guam Economic Development Authority, Government of
               Guam (09/30/2001) *$77,979,855 ****$1,403,990

Minerals Management Service
2001-I-0418    Independent Auditors Report on Minerals Management Service Financial Statements for
               Fiscal Year 2000 (09/04/2001)

Multi-Office
2001-I-0340    Department of the Interior’s Activities to Collect, Review, and Use Information that
               Identifies Individuals Who Access the Department’s Internet Sites (04/30/2001)
2001-I-0357    Followup of Implementation of Audit Recommendations (05/14/2001)
2001-I-0420    Annual Evaluation of Information Security Program and Practices Over Non-National
               Security Systems, Department of the Interior (09/28/2001)
2001-I-0421    Selected Activities on Bonding for Oil and Gas Leases on Indian Trust Lands (09/24/2001)
               *$250,500

Office of Surface Mining
2001-I-0415    Improvements Made in General Controls over Automated Information Systems (09/21/2001)

Office of the Secretary
2001-I-0407    Independent Auditors Report on Departmental Offices Financial Statements for Fiscal Year
               2000 (05/31/2001)

Office of the Special Trustee for American Indians

2001-I-0411    Independent Auditors Report on the Financial Statements for Fiscal Years 2000 and 1999 for
               the Office of the Special Trustee for American Indians and Other Special Trust Funds and
               Individual Indian Monies Trust Funds Managed by the Office of Trust Funds Management
               (06/24/2001)




              Semiannual Report to the Congress: April 1, 2001 - September 30, 2001
                                                   24
                                                                                  Appendix 2 (continued)



Virgin Islands
2001-I-0290    Virgin Islands Lottery, Government of the Virgin Islands (05/11/2001) *$3,313,088
               **$1,066,387 ****$256,219
2001-I-0330    Payroll Operations, Department of Education, Government of the Virgin Islands
               (05/14/2001) **$120,000
2001-I-0422    Government of the Virgin Islands Appropriation Acts as Related to United States v.
               Government of the Virgin Islands, Civil Case No. 1984-104 (09/21/2001)

Single Audits

American Samoa

2001-A-0427    American Samoa Government, Fiscal Year Ended September 30, 1996 (07/06/2001)
               **$426,541

Bureau of Indian Affairs

2001-A-0310    Pinon Community School Board, Inc., Fiscal Year Ended June 30, 1998 (04/09/2001)
               **$700,568
2001-A-0311    Circle of Nations School, Inc., Fiscal Year Ended June 30, 1998 (04/09/2001)
2001-A-0312    Circle of Nations School, Inc., Fiscal Year Ended June 30, 1999 (04/09/2001)
2001-A-0313    Blackfeet Tribe of the Blackfeet Indian Reservation, Fiscal Year Ended September 30, 1998
               (04/09/2001)
2001-A-0314    Blackfeet Tribe of the Blackfeet Indian Reservation, Fiscal Year Ended September 30, 1999
               (04/09/2001)
2001-A-0315    White Mountain Apache Tribe, Fiscal Year Ended April 30, 1999 (04/09/2001)
2001-A-0316    Jicarilla Apache Tribe, Fiscal Year Ended December 31, 1998 (04/09/2001)
2001-A-0317    Jicarilla Apache Tribe, Fiscal Year Ended December 31, 1999 (04/09/2001)
2001-A-0318    Oglala Lakota College, Fiscal Year Ended September 30, 1999 (04/09/2001)
2001-A-0319    Native Village of Chickaloon, Fiscal Year Ended December 31, 1998 (04/09/2001)
2001-A-0331    Pueblo De Cochiti, Fiscal Year Ended December 31, 1998 (04/19/2001)
2001-A-0332    Pueblo De Cochiti, Fiscal Year Ended December 31, 1999 (04/19/2001)
2001-A-0333    Taos Pueblo Central Management System, Fiscal Year Ended December 31, 1998
               (04/19/2001) **$10,016
2001-A-0334    Iowa Tribe of Kansas and Nebraska, Fiscal Year Ended December 31, 1999 (04/19/2001)
               **$12,050
2001-A-0335    Kickapoo Traditional Tribe of Texas, Fiscal Year Ended September 30, 1998 (04/20/2001)
               **$666
2001-A-0360    Western Navajo Juvenile Services Coordinating Council, Inc., Fiscal Year Ended
               September 30, 1998 (05/10/2001)
2001-A-0361    Elk Valley Rancheria, Fiscal Year Ended December 31, 1999 (05/10/2001)
2001-A-0362    White Earth Reservation, Fiscal Year Ended September 30, 1999 (05/10/2001)
2001-A-0363    Casa Blanca Community School, Inc., Fiscal Year Ended June 30, 1999 (05/10/2001)
2001-A-0364    Pleasant Point Passamaquoddy Tribe, Fiscal Year Ended September 30, 1998 (05/10/2001)
              Semiannual Report to the Congress: April 1, 2001 - September 30, 2001
                                                   25
Appendix 2 (continued)




2001-A-0365    Fond Du Lac Reservation, Fiscal Year Ended September 30, 1999 (05/10/2001)
2001-A-0371    Confederated Tribes and Band of the Yakama Indian Nation, Fiscal Year Ended
               September 30, 1998 (05/14/2001) **$44,371
2001-A-0372    Round Valley Indian Tribe, Fiscal Year Ended December 31, 1998 (05/14/2001)
2001-A-0373    Yavapai-Prescott Indian Tribe, Fiscal Year Ended December 31, 1998 (05/14/2001)
2001-A-0374    Skagit System Cooperative, Fiscal Year Ended December 31, 1999 (05/14/2001)
2001-A-0375    Cabazon Band of Mission Indians, Fiscal Year Ended June 30, 1999 (05/14/2001)
2001-A-0376    Organized Village of Kwethluk, Kwethluk Ira Council, Fiscal Year Ended
               December 31, 1997 (05/14/2001)
2001-A-0377    Nulato Tribal Council, Fiscal Year Ended September 30, 1998 (05/14/2001)
2001-A-0378    Nulato Tribal Council, Fiscal Year Ended September 30, 1999 (05/14/2001)
2001-A-0383    Susanville Indian Rancheria, Fiscal Year Ended December 31, 1998 (05/18/2001)
2001-A-0386    Pueblo of Zia, Fiscal Year Ended December 31, 1997 (05/21/2001)
2001-A-0387    Pueblo of Zia, Fiscal Year Ended December 31, 1998 (05/21/2001)
2001-A-0388    Pueblo of Zia, Fiscal Year Ended December 31, 1999 (05/21/2001)
2001-A-0389    Pueblo of Jemez, Fiscal Year Ended September 30, 1998 (05/22/2001)
2001-A-0394    Navajo Nation and Related Tribal Entities, Fiscal Year Ended September 30, 1998
               (05/25/2001)
2001-A-0396    Flandreau Santee Sioux Tribe, Fiscal Year Ended December 31, 1998 (05/25/2001)
2001-A-0397    Rock Point School, Inc., Fiscal Year Ended June 30, 1999 (05/29/2001)
2001-A-0398    Ketchikan Gateway Borough Alaska, Fiscal Year Ended June 30, 1999 (05/29/2001)
2001-A-0400    Fort Belknap College, Inc., Fiscal Year Ended August 31, 1998 (05/31/2001) **$53,500
2001-A-0401    Tonkawa Tribe of Indians of Oklahoma, Fiscal Year Ended December 31, 1998
               (05/31/2001)
2001-A-0402    Kickapoo Traditional Tribe of Texas, Fiscal Year Ended September 30, 1997 (05/31/2001)
2001-A-0413    Standing Rock Community Grant School, Fiscal Year Ended June 30, 1999 (06/27/2001)
2001-A-0414    Copper River Native Association, Inc., Fiscal Year Ended September 30, 1998 (06/27/2001)
2001-A-0415    Gila River Indian Community, Fiscal Year Ended March 31, 1999 (06/27/2001)
2001-A-0416    Pawnee Nation of Oklahoma, Fiscal Year Ended December 31, 1998 (06/27/2001) **$12,189
2001-A-0417    Standing Rock Sioux Tribe, Fiscal Year Ended September 30, 1998 (06/27/2001)
2001-A-0421    Menominee Indian Tribe of Wisconsin, Fiscal Year Ended September 30, 1999 (07/03/2001)
2001-A-0423    Northern Arapahoe Tribe of Indians, Fiscal Year Ended December 31, 1997 (07/03/2001)
2001-A-0424    Eastern Band of Cherokee Indians, Fiscal Year Ended September 30, 1999 (07/03/2001)
2001-A-0425    Taos Pueblo Central Management System, Fiscal Year Ended December 31, 1997
               (07/05/2001) **$43,542
2001-A-0426    Summit Lake Paiute Tribe, Fiscal Year Ended December 31, 1999 (07/05/2001)
2001-A-0428    Southern Ute Indian Tribe, Fiscal Year Ended September 30, 1998 (07/30/2001)
2001-A-0429    Lower Kuskokwim School District, Fiscal Year Ended June 30, 1999 (08/01/2001)
2001-A-0430    Shoalwater Bay Indian Tribe, Fiscal Year Ended September 30, 1999 (08/01/2001)
2001-A-0431    Confederated Tribes of Siletz Indians of Oregon, Fiscal Year Ended December 31, 1999
               (08/01/2001)
2001-A-0432    Klamath Tribe, Fiscal Year Ended December 31, 1998 (08/01/2001) **$732,158
2001-A-0433    Ute Indian Tribe, Fiscal Year Ended September 30, 1997 (07/31/2001)
2001-A-0434    Morongo Band of Mission Indians, Fiscal Year Ended June 30, 1997 (07/31/2001)
2001-A-0435    Morongo Band of Mission Indians, Fiscal Year Ended June 30, 1998 (07/31/2001)
2001-A-0437    Puyallup Tribe of Indians, Fiscal Year Ended September 30, 1998 (07/31/2001)
              Semiannual Report to the Congress: April 1, 2001 - September 30, 2001
                                                  26
                                                                                Appendix 2 (continued)




2001-A-0438    Iowa Tribe of Oklahoma, Fiscal Year Ended December 31, 1998 (07/31/2001)
2001-A-0439    Indian Township Tribal Government, Fiscal Year Ended September 30, 1999 (07/31/2001)
2001-A-0440    Lytton Rancheria-Lytton Band of Pomo Indians, Fiscal Year Ended December 31, 1999
               (07/31/2001)
2001-A-0441    Yomba Shoshone Tribe, Fiscal Year Ended December 31, 1998 (07/31/2001)
2001-A-0442    Sitka Tribe of Alaska, Fiscal Year Ended December 31, 1998 (07/31/2001)
2001-A-0443    Fort Mojave Indian Tribe, Fiscal Year Ended September 30, 1998 (07/31/2001)
2001-A-0444    Chemehuevi Indian Tribe, Fiscal Year Ended December 31, 1999 (07/31/2001)
2001-A-0445    Trenton Indian Service Area Corporation, Fiscal Year Ended September 30, 1997
               (07/31/2001)
2001-A-0447    Gila Crossing Community School, Fiscal Year Ended June 30, 1999 (07/31/2001)
2001-A-0448    Rincon San Luiseno Band of Mission Indians, Fiscal Year Ended September 30, 1998
               (07/31/2001)
2001-A-0451    Lower Brule Sioux Tribe, Fiscal Year Ended September 30, 1999 (07/31/2001)
2001-A-0452    Fallon Paiute-Shoshone Tribe, Fiscal Year Ended December 31, 1998 (07/31/2001)
2001-A-0453    Ponca Tribe of Nebraska, Fiscal Year Ended September 30, 1999 (07/31/2001)
2001-A-0454    Pokagon Band of Potawatomi Indians, Fiscal Year Ended September 30, 1998
               (07/31/2001)
2001-A-0455    Tuba City High School Board, Inc., Fiscal Year Ended June 30, 1998 (07/31/2001)
2001-A-0461    Pascua Yaqui Tribe of Arizona, Fiscal Year Ended September 30, 1998 (07/31/2001)
2001-A-0462    Pascua Yaqui Tribe of Arizona, Fiscal Year Ended September 30, 1999 (07/31/2001)
               **$13,641
2001-A-0463    Pueblo of Laguana, Fiscal Year Ended February 28, 1998 (08/14/2001)
2001-A-0464    Wingate Board of Education, Inc., Fiscal Year Ended June 30, 1997 (08/17/2001)
2001-A-0465    Wingate Board of Education, Inc., Fiscal Year Ended June 30, 1999 (08/17/2001)
2001-A-0466    Shoshone-Bannock Tribes, Fiscal Year Ended September 30, 1999 (08/22/2001)
2001-A-0467    Mescalero Apache Tribe, Fiscal Year Ended September 30, 1999 (08/23/2001)
2001-A-0470    Iowa Tribe of Oklahoma, Fiscal Year Ended December 31, 1999 (08/27/2001)
2001-A-0471    Hopland Band of Pomo Indians, Fiscal Year Ended December 31, 1999 (08/27/2001)
2001-A-0474    Bear River Band of the Rohnerville Rancheria, Fiscal Year Ended December 31, 1999
               (08/31/2001) **$12,873
2001-A-0480    Elk Valley Rancheria, Fiscal Year Ended December 31, 1998 (08/30/2001)
2001-A-0481    Kodiak Area Native Association, Fiscal Year Ended September 30, 1999 (09/14/2001)
2001-A-0484    Sicangu Oyate Ho, Inc., Fiscal Year Ended June 30, 1999 (08/31/2001)
2001-A-0485    Hopi Junior/Senior High School, Fiscal Year Ended June 30, 2000 (09/07/2001)
2001-A-0486    Second Mesa Day School, Fiscal Year Ended June 30, 2000 (09/06/2001)
2001-A-0487    Pueblo of Tesuque, Fiscal Year Ended December 31, 1998 (09/05/2001)
2001-A-0488    Smith River Rancheria, Fiscal Year Ended December 31, 1998 (09/05/2001)
2001-A-0489    Mni Sose Intertribal Water Rights Coalitions, Inc., Fiscal Year Ended December 31, 1999
               (09/05/2001)
2001-A-0491    Bahweting Anishnabe School, Fiscal Year Ended June 30, 2000 (09/17/2001)
2001-A-0492    Crow Creek Tribal Schools, Fiscal Year Ended June 30, 1999 (09/10/2001)
2001-A-0494    United Sioux Tribes of South Dakota Development Corporation, Fiscal Year Ended
               September 30, 1999 (09/10/2001)
2001-A-0496    Native Village of Mekoryuk Ira Council, Fiscal Year Ended December 31, 1997
               (09/17/2001) **$83,934
              Semiannual Report to the Congress: April 1, 2001 - September 30, 2001
                                                  27
Appendix 2 (continued)



2001-A-0497    Tuolumne Band of Me-Wuk Indians, Fiscal Year Ended December 31, 1999 (09/21/2001)
2001-A-0499    Ely Shoshone Tribe, Fiscal Year Ended December 31, 1999 (09/21/2001)
2001-A-0500    Bear River Band of Rohnerville Rancheria, Fiscal Year Ended December 31, 1997
               (09/19/2001)
2001-A-0501    Bear River Band of Rohnerville Rancheria, Fiscal Year Ended December 31, 1998
               (09/19/2001)
2001-A-0502    Makah Tribal Council, Fiscal Year Ended December 31, 1999 (09/19/2001)
2001-A-0503    Washoe Tribe of Nevada and California, Fiscal Year Ended December 31, 1999
               (09/19/2001)
2001-A-0504    Ute Mountain Ute Tribe, Fiscal Year Ended September 30, 1998 (09/19/2001)
2001-A-0505    Nooksack Indian Tribe, Fiscal Year Ended December 31, 1997 (09/19/2001)
2001-A-0506    Santa Clara Indian Pueblo, Fiscal Year Ended December 31, 1998 (09/19/2001)
2001-A-0507    Big Valley Rancheria Band of Pomo Indians, Fiscal Year Ended December 31, 1997
               (09/18/2001)
2001-A-0508    Pueblo of Sandia, Fiscal Year Ended December 31, 1998 (09/19/2001)
2001-A-0509    Picayune Rancheria of the Chukchansi Indian Tribe, Fiscal Year Ended December 31, 1998
               (09/19/2001)
2001-A-0510    Aroostook Band of Micmacs, Fiscal Year Ended December 31, 1999 (09/19/2001)
2001-A-0511    Alabama Coushatta Tribe of Texas, Fiscal Year Ended December 31, 1998 (09/19/2001)
2001-A-0512    Pueblo of Jemez, Fiscal Year Ended September 30, 1999 (09/19/2001)
2001-A-0513    Standing Rock Sioux Tribe, Fiscal Year Ended September 30, 1999 (09/19/2001)
2001-A-0514    Confederated Tribes of the Grand Ronde Community of Oregon, Fiscal Year Ended
               December 31, 1998 (09/19/2001)
2001-A-0515    Minnesota Chippewa Tribe, Fiscal Year Ended September 30, 1999 (09/19/2001)
2001-A-0516    Burns Paiute Tribe, Fiscal Year Ended December 31, 1999 (09/25/2001)
2001-A-0517    Loneman School Corporation, Fiscal Year Ended June 30, 1998 (09/25/2001) **$132,181
2001-A-0518    Chickaloon Village Traditional Council, Fiscal Year Ended December 31, 1999 (09/25/2001)
2001-A-0519    Kaw Nation of Oklahoma, Fiscal Year Ended December 31, 1998 (09/24/2001)
2001-A-0520    Round Valley Indian Tribe, Fiscal Year Ended December 31, 1999 (09/24/2001) **$59,199

Bureau of Land Management
2001-A-0482    Madera County, California, Fiscal Year Ended June 30, 1999 (09/14/2001)
2001-A-0483    County of Berks, Pennsylvania, Fiscal Year Ended December 31, 1999 (09/14/2001)

Bureau of Reclamation
2001-A-0359    Reclamation District #1004, Fiscal Year Ended December 31, 1999 (05/10/2001)
2001-A-0395    East Juab County Water Conservancy District, Fiscal Year Ended December 31, 1999
               (05/25/2001)
2001-A-0420    City of Harlingen, Texas, Fiscal Year Ended September 30, 1997 (07/02/2001)
2001-A-0436    Southwestern Indian Polytechnic Institute Board of Regents, Fiscal Year Ended
               December 31, 1999 (07/31/2001)
2001-A-0446    Princeton-Codora-Glenn Irrigation District, Fiscal Year Ended December 31, 1998
               (07/31/2001)

              Semiannual Report to the Congress: April 1, 2001 - September 30, 2001
                                                  28
                                                                                Appendix 2 (continued)



2001-A-0449    Tehema-Colusa Canal Authority, Fiscal Year Ended September 30, 1999 (07/31/2001)

Federated States of Micronesia
2001-A-0346    Federated States of Micronesia, National Government, Fiscal Year Ended
               September 30, 1999 (05/02/2001) **$97,299
2001-A-0490    College of Micronesia-Federated States of Micronesia, Fiscal Year Ended
               September 30, 2000 (09/06/2001)

Fish and Wildlife Service

2001-A-0418    State of Alaska, Fiscal Year Ended June 30, 1998 (06/27/2001)
2001-A-0419    State of Florida, Fiscal Year Ended June 30, 1999 (07/02/2001)
2001-A-0457    Suisun Resource Conservation District of Solano County, Fiscal Year Ended June 30, 1998
               (07/31/2001) **$792,242
2001-A-0460    State of Montana, Fiscal Year Ended June 30, 1999 (07/31/2001)
2001-A-0479    State of Alabama, Fiscal Year Ended September 30, 1999 (09/07/2001)
2001-A-0493    Arkansas Game and Fish Commission, Fiscal Year Ended June 30, 1999 (09/10/2001)
               **$120,144
2001-A-0495    Suisun Resource Conservation District of Solano County, Fiscal Year Ended June 30, 1999
               (09/10/2001)

Geological Survey
2001-A-0475    Woods Hole Oceanographic Institution, Fiscal Year Ended December 31, 1999 (09/07/2001)
2001-A-0476    University of Delaware, Fiscal Year Ended June 30, 2000 (09/07/2001)

Guam
2001-A-0477    Sanctuary, Incorporated, Fiscal Year Ended September 30, 2000 (08/30/2001)
2001-A-0478    Guam Mass Transit Authority, Fiscal Year Ended September 30, 2000 (08/30/2001)
2001-A-0522    Guam Telephone Authority, Fiscal Year Ended September 30, 1999 (09/24/2001)

Marshall Islands
2001-A-0498    Republic of the Marshall Islands, Fiscal Year Ended September 30, 2000 (09/17/2001)
               **$840,522

Northern Mariana Islands
2001-A-0341    Commonwealth Development Authority, Fiscal Year Ended September 30, 1999
               (04/30/2001)
2001-A-0342    Commonwealth Ports Authority, Fiscal Year Ended September 30, 2000 (05/02/2001)


              Semiannual Report to the Congress: April 1, 2001 - September 30, 2001
                                                   29
Appendix 2 (continued)



2001-A-0408    Commonwealth Development Authority, Fiscal Year Ended September 30, 2000
               (06/18/2001)
2001-A-0472    Karidat, Fiscal Year Ended September 30, 1999 (08/28/2001)

Office of Surface Mining
2001-A-0456    Harlen County Fiscal Court, Fiscal Year Ended June 30, 1998 (07/31/2001)
2001-A-0458    Illinois Department of Natural Resources, Fiscal Year Ended June 30, 1998 (07/31/2001)
2001-A-0459    State of Illinois, Department of Natural Resources, Fiscal Year Ended June 30, 1999
               (07/31/2001) **$125,251
2001-A-0468    Commonwealth of Pennsylvania, Fiscal Year Ended June 30, 1999 (08/23/2001)
2001-A-0469    Commonwealth of Pennsylvania, Fiscal Year Ended June 30, 2000 (08/23/2001)

Office of the Secretary

2001-A-0450    Connecticut College, New London, Connecticut, Fiscal Year Ended June 30, 1999
               (07/31/2001) **$3,234

Republic of Palau
2001-A-0521    Republic of Palau National Government, Fiscal Year Ended September 30, 2000
               (09/21/2001)

Pohnpei
2001-A-0354    Pohnpei Family Headstart Program, Inc., Fiscal Year Ended March 31, 1998 (05/04/2001)
2001-A-0358    Pohnpei Family Headstart Program, Inc., Fiscal Year Ended March 31, 1999 (05/09/2001)

Virgin Islands
2001-A-0407    University of the Virgin Islands, Fiscal Year Ended September 30, 1998 (06/06/2001)
2001-A-0411    Virgin Islands Port Authority, Fiscal Year Ended September 30, 2000 (06/26/2001)
2001-A-0412    Virgin Islands Housing Authority, Fiscal Year Ended September 30, 1999 (06/26/2001)
2001-A-0422    Government of the Virgin Islands, Fiscal Year Ended September 30, 1999 (07/03/2001)

Contract and Grant Audits
Minerals Management Service
2001-E-0320    State of New Mexico, Oil and Gas Bureau, Costs Billed Under Minerals Management
               Service Cooperative Agreement No. 14-35-0002-40254 from September 1, 1993 through
               September 30, 2000 (04/03/2001)
2001-E-0355    Ute Indian Tribe, Costs Billed Under Minerals Management Service Cooperative Agreement
               No. 15-35-0002-40270 from October 1, 1994 through September 30, 2000 (05/04/2001)
               **$132,217
              Semiannual Report to the Congress: April 1, 2001 - September 30, 2001
                                                   30
                                                                               Appendix 2 (continued)



National Park Service

2001-E-0336    JCM Control Systems, Inc., Costs Billed Under National Park Service Contract No.
               1444CX300094906 from January 1, 1994 through July 16, 1999 (04/23/2001) **$109,865


Indirect Cost Proposals
Bureau of Indian Affairs

2001-P-0322    Eastern Band of Cherokee Indians, Fiscal Year Ended September 30, 1997 (04/09/2001)
2001-P-0323    Eastern Band of Cherokee Indians, Fiscal Year Ended September 30, 1998 (04/09/2001)
               *$48,245
2001-P-0324    Eastern Band of Cherokee Indians, Fiscal Year Ended September 30, 1999 (04/09/2001)
2001-P-0325    Organized Village of Kake, Fiscal Year Ended December 31, 1998 (04/09/2001)
2001-P-0327    Cheesh’na Tribal Council, Fiscal Year Ended September 30, 1999 (04/12/2001)
2001-P-0328    Cheesh’na Tribal Council, Fiscal Year Ended September 30, 2000 (04/12/2001)
2001-P-0329    Cheesh’na Tribal Council, Fiscal Year Ended September 30, 2001 (04/12/2001)
2001-P-0337    Sheep Ranch Rancheria of Me-Wuk Indians, Fiscal Year Ended December 31, 2001
               (04/23/2001)
2001-P-0338    Cow Creek Band of Umpqua Tribe of Indians, Fiscal Year Ended December 30, 1998
               (04/24/2001) *$224,529
2001-P-0344    Fort Belknap College, Fiscal Year Ended August 31, 1999 (05/03/2001)
2001-P-0345    Fort Belknap College, Fiscal Year Ended August 31, 2000 (05/03/2001)
2001-P-0347    Fort Belknap College, Fiscal Year Ended August 31, 1993 (05/03/2001)
2001-P-0348    Fort Belknap College, Fiscal Year Ended August 31, 1994 (05/03/2001)
2001-P-0349    Fort Belknap College, Fiscal Year Ended August 31, 1995 (05/03/2001)
2001-P-0350    Fort Belknap College, Fiscal Year Ended August 31, 1996 (05/03/2001)
2001-P-0351    Fort Belknap College, Fiscal Year Ended August 31, 1997 (05/03/2001)
2001-P-0352    Sisseton-Wahpeton Sioux Tribe, Fiscal Year Ended September 30, 1999 (05/03/2001)
               $38,681
2001-P-0353    Peoria Tribe of Indians Of Oklahoma, Fiscal Year Ended March 31, 2001 (05/03/2001)
2001-P-0370    Colorado River Indian Tribes, Fiscal Year Ended December 31, 1999 (05/11/2001)
               *$213,683
2001-P-0380    Minnesota Chippewa Tribe, Fiscal Year Ended September 30, 2001 (05/15/2001)
2001-P-0381    Chickasaw Nation of Oklahoma, Fiscal Year Ended September 30, 2000 (05/15/2001)
               *$632,596
2001-P-0382    Chickasaw Nation of Oklahoma, Fiscal Year Ended September 30, 2001 (05/15/2001)
               *$590,646
2001-P-0390    Gila River Indian Community, Fiscal Year Ended September 30, 2000 (05/23/2001)
2001-P-0391    Gila River Indian Community, Fiscal Year Ended September 30, 1999 (05/23/2001)
               *$593,157
2001-P-0392    Nooksack Indian Tribe, Fiscal Year Ended December 31, 1999 (05/23/2001) *$202,778
2001-P-0393    Nooksack Indian Tribe, Fiscal Year Ended December 31, 2000 (05/23/2001) *$70,216
2001-P-0399    Hualapai Nation, Fiscal Year Ended December 31, 2000 (05/31/2001) *$14,574

              Semiannual Report to the Congress: April 1, 2001 - September 30, 2001
                                                  31
Appendix 2 (continued)




2001-P-0403    Miccosukee Corporation, Fiscal Year Ended September 30, 1999 (05/31/2001)
2001-P-0404    Miccosukee Corporation, Fiscal Year Ended September 30, 2000 (05/31/2001)
2001-P-0405    Saint Regis Mohawk Tribe, Fiscal Year Ended December 31, 2001 (05/31/2001) *$342,219
2001-P-0409    Trinidad Rancheria, Fiscal Year Ended December 31, 2000 (06/15/2001) *$23,052
2001-P-0410    Trinidad Rancheria, Fiscal Year Ended December 31, 2001 (06/15/2001)
2001-P-0411    Spirit Lake Sioux Tribe, Fiscal Year Ended September 30, 2002 (06/19/2001) *$70,666
2001-P-0412    Spirit Lake Sioux Tribe, Fiscal Year Ended September 30, 2001 (06/19/2001) *$133,095
2001-P-0414    Confederated Tribes of the Chehalis Reservation, Fiscal Year Ended December 31, 2000
               (06/25/2001) *$150,111
2001-P-0415    Redwood Valley Rancheria of Pomo Indians of California, Fiscal Year Ended
               December 31, 1999 (06/25/2001)
2001-P-0416    Redwood Valley Rancheria of Pomo Indians of California, Fiscal Year Ended
               December 31, 2000 (06/25/2001)
2001-P-0417    Kenaitze Indian Tribe Ira, Fiscal Year Ended September 30,1999 (07/02/2001) *$60,566
2001-P-0418    Kenaitze Indian Tribe Ira, Fiscal Year Ended September 30, 2001 (07/02/2001) *$60,566
2001-P-0424    Chemehuevi Indian Tribe, Fiscal Year Ended December 31, 2000 (07/09/2001)
2001-P-0425    Chemehuevi Indian Tribe, Fiscal Year Ended December 31, 2001 (07/09/2001) *$47,840
2001-P-0426    Confederated Salish and Kootenai Tribes of the Flathead Reservation, Fiscal Year Ended
               September 30, 1999 (07/09/2001) *$520,729
2001-P-0427    Confederated Salish and Kootenai Tribes of the Flathead Reservation, Fiscal Year Ended
               September 30, 2000 (07/09/2001)
2001-P-0428    Confederated Salish and Kootenai Tribes of the Flathead Reservation, Fiscal Year Ended
               September 30, 2001 (07/09/2001)
2001-P-0429    Alaska Inter-Tribal Council, Fiscal Year Ended December 31, 2000 (07/09/2001) *$86,523
2001-P-0430    Alaska Inter-Tribal Council, Fiscal Year Ended December 31, 2001 (07/09/2001) *$86,523
2001-P-0432    Elko Band Council of the Te Moak Tribe of the Western Shosone Tribe, Fiscal Year Ended
               September 30, 2000 (07/11/2001)
2001-P-0433    Elko Band Council of the Te-Moak Tribe of Western Shoshone, Fiscal Year Ended
               September 30, 2001 (07/11/2001)
2001-P-0434    Tanana Ira Native Council, Fiscal Year Ended September 30,1999 (07/11/2001)
2001-P-0435    Tanana Ira Native Council, Fiscal Year Ended September 30, 2000 (07/11/2001)
2001-P-0436    Tanana Ira Native Council, Fiscal Year Ended September 30, 2001 (07/11/2001)
2001-P-0441    Kaw Nation, Fiscal Year Ended December 31, 1999 (07/11/2001)
2001-P-0442    Kaw Nation, Fiscal Year Ended December 31, 2000 (07/11/2001)
2001-P-0443    Kaw Nation, Fiscal Year Ended December 31, 2001 (07/11/2001)
2001-P-0444    Passamaquoddy Indian Township Tribal Government, Fiscal Year Ended
               September 30, 1996 (07/17/2001) *$11,637
2001-P-0445    Passamaquoddy Indian Township Tribal Government, Fiscal Year Ended
               September 30, 1997 (07/17/2001) *$13,127
2001-P-0446    Passamaquoddy Indian Township Tribal Government, Fiscal Year Ended
               September 30, 1998 (07/17/2001)
2001-P-0447    Passamaquoddy Indian Township Tribal Government, Fiscal Year Ended
               September 30, 1999 (07/17/2001)
2001-P-0448    Passamaquoddy Indian Township Tribal Government, Fiscal Year Ended
               September 30, 2000 (07/17/2001)
2001-P-0449    Makah Tribal Council, Fiscal Year Ended December 31, 2001 (07/18/2001)
              Semiannual Report to the Congress: April 1, 2001 - September 30, 2001
                                                  32
                                                                              Appendix 2 (continued)




2001-P-0450    Narragansett Indian Tribe, Fiscal Year Ended December 31, 1994 (07/17/2001)
2001-P-0451    Narragansett Indian Tribe, Fiscal Year Ended December 31, 1995 (07/17/2001)
2001-P-0452    Narragansett Indian Tribe, Fiscal Year Ended December 31, 1997 (07/17/2001)
2001-P-0453    Narragansett Indian Tribe, Fiscal Year Ended December 31, 1998 (07/17/2001) *$226,967
2001-P-0454    Narragansett Indian Tribe, Fiscal Year Ended December 31, 1999 (07/17/2001) *$5,022
2001-P-0455    Narragansett Indian Tribe, Fiscal Year Ended December 31, 2000 (07/17/2001) *$192,266
2001-P-0456    Intertribal Council of Michigan, Fiscal Year Ended September 30, 2001 (07/17/2001)
               *$4,162
2001-P-0457    White Earth Reservation, Fiscal Year Ended September 30, 1999 (07/18/2001)
2001-P-0458    Pokagon Band of Potawatomi Indians, Fiscal Year Ended September 30, 1998 (07/17/2001)
               *$454,995
2001-P-0459    Great Lakes Intertribal Council, Fiscal Year Ended June 30, 2001 (07/17/2001) *$14,944
2001-P-0460    St. Croix Tribal Council, Fiscal Year Ended September 30, 2000 (07/17/2001) *$24,730
2001-P-0463    Wampanoag Tribe of Gay Head Aquinnah, Fiscal Year Ended September 30, 1999
               (07/18/2001)
2001-P-0464    Wampanoag Tribe of Gay Head Aquinnah, Fiscal Year Ended September 30, 2000
               (07/18/2001)
2001-P-0465    Wampanoag Tribe of Gay Head Aquinnah, Fiscal Year Ended September 30, 2001
               (07/18/2001)
2001-P-0466    Sherwood Valley Band of Pomo Indians, Fiscal Year Ended December 31, 2000
               (07/19/2001)
2001-P-0467    Sherwood Valley Band of Pomo Indians, Fiscal Year Ended December 31, 2001
               (07/19/2001)
2001-P-0468    Yurok Tribe, Fiscal Year Ended September 30, 2001 (07/24/2001) *$398,122
2001-P-0469    Cortina Indian Rancheria, Fiscal Year Ended December 31, 2000 (07/24/2001)
2001-P-0471    Cedarville Rancheria, Fiscal Year Ended December 31, 1999 (08/07/2001)
2001-P-0472    Cedarville Rancheria Tribal Office, Fiscal Year Ended December 31, 2000 (08/07/2001)
2001-P-0473    Cedarville Rancheria Tribal Office, Fiscal Year Ended December 31, 2001 (08/07/2001)
2001-P-0474    Delaware Nation of Western Oklahoma, Fiscal Year Ended September 30, 2002 (08/10/2001)
               *$12,157
2001-P-0475    Delaware Nation of Western Oklahoma, Fiscal Year Ended Septemebr 30, 2001 (08/10/2001)
               *$8,480
2001-P-0476    Pueblo of Laguna, Fiscal Year Ended February 28, 1999 (08/14/2001) *$26,947
2001-P-0477    Burns Paiute Tribe, Fiscal Year Ended December 31, 2001 (08/15/2001) *$24,650
2001-P-0478    Oglala Sioux Tribe, Fiscal Year Ended December 31, 1996 (08/20/2001)
2001-P-0479    Sac and Fox Nation of Oklahoma, Fiscal Year Ended September 30, 1999 (08/20/2001)
               *$17,260
2001-P-0480    Yavapai-Prescott Indian Tribe, Fiscal Year Ended December 31, 2000 (08/23/2001)
2001-P-0481    Lytton Band of Pomo Indians, Fiscal Year Ended December 31, 2000 (08/23/2001)
2001-P-0482    Lytton Band of Pomo Indians, Fiscal Year Ended December 31, 2001 (08/23/2001)
2001-P-0483    Lytton Band of Pomo Indians, Fiscal Year Ended December 31, 2002 (08/23/2001)
2001-P-0484    Ponca Tribe of Oklahoma, Fiscal Year Ended September 30, 2000 (08/24/2001) *$14,916
2001-P-0485    Ponca Tribe of Oklahoma, Fiscal Year Ended September 30, 2001 (08/24/2001) *$23,223
2001-P-0486    Seminole Nation of Oklahoma, Fiscal Year Ended September 30, 1996 (08/24/2001)
2001-P-0487    Seminole Nation of Oklahoma, Fiscal Year Ended September 30, 1997 (08/24/2001)
2001-P-0488    Seminole Nation of Oklahoma, Fiscal Year Ended December 30, 1999 (08/24/2001)

              Semiannual Report to the Congress: April 1, 2001 - September 30, 2001
                                                 33
Appendix 2 (continued)



2001-P-0489    Tonkawa Tribe of Oklahoma, Fiscal Year Ended December 31, 2000 (08/24/2001) $107,291
2001-P-0490    Tonkawa Tribe of Oklahoma, Fiscal Year Ended December 31, 2001 (08/24/2001) *$11,455
2001-P-0491    Summit Lake Paiute Tribe, Fiscal Year Ended December 31, 1996 (08/24/2001)
2001-P-0492    Summit Lake Paiute Tribe, Fiscal Year Ended December 31, 1997 (08/24/2001)
2001-P-0493    Summit Lake Paiute Tribe, Fiscal Year Ended December 31, 1998 (08/24/2001) *$11,358
2001-P-0494    Summit Lake Paiute Tribe, Fiscal Year Ended December 31,1999 (08/24/2001)
2001-P-0495    Summit Lake Paiute Tribe, Fiscal Year Ended December 31, 2000 (08/24/2001) *$24,697
2001-P-0498    Mashantucket Pequot Tribal Nation, Fiscal Year Ended September 30, 1997 (09/04/2001)
2001-P-0499    Mashantucket Pequot Tribal Nation, Fiscal Year Ended September 30, 1998 (09/04/2001)
2001-P-0500    Mashantucket Pequot Tribal Nation, Fiscal Year Ended September 30, 1999 (09/04/2001)
2001-P-0501    Mashantucket Pequot Tribal Nation, Fiscal Year Ended September 30, 2000 (09/04/2001)
2001-P-0502    Mashantucket Pequot Tribal Nation, Fiscal Year Ended September 30, 2001 (09/04/2001)
2001-P-0503    Mashantucket Pequot Tribal Nation, Fiscal Year Ended September 30, 2002 (09/04/2001)
2001-P-0506    Jicarilla Apache Tribe, Fiscal Year Ended December 31, 1999 (09/05/2001)
2001-P-0507    Jicarilla Apache Tribe, Fiscal Year Ended December 31, 2000 (09/05/2001)
2001-P-0508    Iowa Tribe of Oklahoma, Fiscal Year Ended December 31, 1999 (09/05/2001)
2001-P-0509    Iowa Tribe of Oklahoma, Fiscal Year Ended December 31, 2000 (09/05/2001) *$20,461
2001-P-0510    Coquille Indian Tribe, Fiscal Year Ended December 31, 2001 (09/05/2001) *$217,563
2001-P-0513    Blue Lake Rancheria, Fiscal Year Ended December 31, 1997 (09/10/2001)
2001-P-0514    Blue Lake Rancheria, Fiscal Year Ended December 31, 1998 (09/10/2001)
2001-P-0515    Blue Lake Rancheria, Fiscal Year Ended December 31, 1999 (09/10/2001) *$58,707
2001-P-0516    Blue Lake Rancheria, Fiscal Year Ended December 31, 2000 (09/10/2001) *$47,646
2001-P-0522    Saint Stephens Indian School Educational Association, Fiscal Year Ended June 30, 2002
               (09/10/2001)
2001-P-0523    Sinte Gleska University, Fiscal Year Ended September 30, 2000 (09/10/2001)
2001-P-0524    Sinte Gleska University, Fiscal Year Ended September 30, 2001 (09/10/2001)
2001-P-0525    Turtle Mountain Band of Chippewa Indians, Fiscal Year Ended September 30, 2001
               (09/11/2001) *$24,483
2001-P-0526    Nottawaseppi Huron Band of Potawatomi, Fiscal Year Ended December 31, 1998
               (09/12/2001)
2001-P-0527    Nottawaseppi Huron Band of Potawatomi, Fiscal Year Ended December 31, 1999
               (09/12/2001)
2001-P-0528    Nottawaseppi Huron Band of Potawatomi, Fiscal Year Ended December 31, 2000
               (09/12/2001)
2001-P-0529    Nottawaseppi Huron Band of Potawatomi, Fiscal Year Ended December 31, 2001
               (09/12/2001)
2001-P-0530    Poarch Band of Creek Indians, Fiscal Year Ended December 31, 2001 (09/12/2001)
2001-P-0531    Mississippi Band of Choctaw Indians, Fiscal Year Ended September 30, 1997 (06/02/2001)
2001-P-0532    Mississippi Band of Choctaw Indians, Fiscal Year Ended September 30, 1998 (09/13/2001)
               *$869,038
2001-P-0533    Mississippi Band of Choctaw Indians, Fiscal Year Ended September 30, 1999 (09/13/2001)
               *$953,219
2001-P-0534    Mississippi Band of Choctaw Indians, Fiscal Year Ended September 30, 2000 (09/13/2001)
2001-P-0535    Enterprise Rancheria, Fiscal Year Ended December 31, 2001 (09/19/2001)
2001-P-0536    Pascua Yaqui Tribe of Arizona, Fiscal Year Ended September 30, 2001 (09/19/2001)
               $1,573,943

              Semiannual Report to the Congress: April 1, 2001 - September 30, 2001
                                                 34
                                                                                Appendix 2 (continued)




2001-P-0537    Agdaagux Tribe of King Cove, Fiscal Year Ended September 30, 2000 (09/19/2001)
2001-P-0538    Agdaagux Tribe of King Cove, Fiscal Year Ended September 30, 2001 (09/19/2001) *$7,463
2001-P-0539    Dry Creek Rancheria of Pomo Indians of California, Fiscal Year Ended December 31, 2001
               (09/20/2001)
2001-P-0540    Shoshone-Paiute Tribes of the Duck Valley Indian Reservation, Fiscal Year Ended
               September 30, 2001 (09/20/2001)
2001-P-0541    Ely Shoshone Tribe, Fiscal Year Ended December 31, 2001 (09/20/2001) *$56,617
2001-P-0543    Choctaw Nation of Oklahoma, Fiscal Year Ended September 30, 2000 (09/24/2001)
2001-P-0544    Choctaw Nation of Oklahoma, Fiscal Year Ended September 30, 2001 (09/24/2001)
2001-P-0546    Skagit System Cooperation, Fiscal Year Ended December 31, 2000 (09/25/2001)
2001-P-0547    Skagit System Cooperative, Fiscal Year Ended December 31, 2001 (09/25/2001)
2001-P-0548    Bishop Tribal Council, Fiscal Year Ended December 31, 2001 (09/25/2001)
2001-P-0550    Bear River Band of Rohnerville Rancheria, Fiscal Year Ended December 31, 2001
               (09/25/2001) *$48,670

Fish and Wildlife Service
2001-P-0461    North Carolina Wildlife Resources Commission, Fiscal Year Ended June 30, 2002
               (07/17/2001)
2001-P-0462    Indiana Department of Natural Resources, Fiscal Year Ended June 30, 2001 (07/17/2001)
2001-P-0519    Michigan Department of Natural Resources, Fiscal Year Ended September 30, 2001
               (09/10/2001)
2001-P-0520    Maryland Department of Natural Resources, Fiscal Year Ended June 30, 2002 (09/10/2001)

Geological Survey

2001-P-0505    State of Wyoming, Geological Survey, Fiscal Year Ended June 30, 2002 (09/04/2001)

Multi-Office Audit
2001-P-0326    Oregon Department of Geology and Mineral Industries, Fiscal Year Ended June 30, 2002
               (04/09/2001) *$11,499
2001-P-0343    Idaho Historical Society, Fiscal Year Ended June 30, 2002 (05/01/2001)
2001-P-0407    California Department of Parks and Recreation, Fiscal Year Ended June 30, 2001
               (06/12/2001) *$12,893
2001-P-0408    California Department of Parks and Recreation, Fiscal Year Ended June 30, 2002
               (06/13/2001) *$50,865
2001-P-0517    State of Hawaii-Department of Land and Natural Resources, Fiscal Year Ended
               June 30, 2002 (09/10/2001)
2001-P-0518    Arizona Game and Fish Department, Fiscal Year Ended June 30, 2002 (09/10/2001)
2001-P-0545    Idaho Department of Parks and Recreation, Fiscal Year Ended June 30, 2002 (09/25/2001)
2001-P-0549    State of Montana Department of Natural Resources and Conservation, Fiscal Year Ended
               June 30, 2002 (09/21/2001)



              Semiannual Report to the Congress: April 1, 2001 - September 30, 2001
                                                  35
Appendix 2 (continued)




Northern Mariana Islands
2001-P-0496    Commonwealth of the Northern Mariana Islands, Indirect Cost Proposal, Fiscal Year Ended
               September 30, 2002 (08/27/2001)

National Park Service

2001-P-0366    Kansas Historical Society, Fiscal Year Ended June 30, 2002 (05/11/2001)
2001-P-0367    Kansas Historical Society, Fiscal Year Ended June 30, 2001 (05/11/2001)
2001-P-0368    Kansas Historical Society, Fiscal Year Ended June 30, 2003 (05/11/2001)
2001-P-0369    Colorado Historical Society, Fiscal Year Ended June 30, 2001 (05/11/2001)
2001-P-0504    Wyoming Department of State Parks and Cultural Resources, Fiscal Year Ended
               June 30, 2002 (09/04/2001)

Office of Surface Mining and Reclamation and Enforcement
2001-P-0413    West Virginia Division of Environmental Protection, Fiscal Year Ended June 30, 2002
               (06/21/2001)
2001-P-0542    Virginia Department of Mines, Minerals, and Energy, Fiscal Year Ended June 30, 2002
               (09/24/2001)

Palau
2001-P-0339    Republic of Palau, National Government, Indirect Cost Proposal, Fiscal Year Ended
               September 30, 2001 (04/23/2001)

Virgin Islands
2001-P-0384    Department of Agriculture, Government of the Virgin Islands, Fiscal Years 2000 to 2002
               (05/18/2001)
2001-P-0470    Department of Education, Government of the Virgin Islands, Fiscal Years 2000 to 2002
               (08/09/2001)




              Semiannual Report to the Congress: April 1, 2001 - September 30, 2001
                                                   36
                                                      Appendix 3


                          Monetary Impact of Audit Activities from
                          April 1, 2001 through September 30, 2001

                                                                         FUNDS TO
                                                                         BE PUT TO
                                               QUESTIONED                 BETTER
ACTIVITY*                                        COSTS                       USE        REVENUES       TOTAL
                                                                          (* and **)

Bureau of Indian Affairs                            $1,910,888             $9,717,211            0    $11,628,099

Fish and Wildlife Service                                912,386                   0             0       912,386

Insular Areas: **

  - American Samoa                                       426,541                   0             0       426,541

  - Federated States of
     Micronesia                                           97,299                   0             0         97,299

  - Guam                                                            0      88,926,625    1,403,990     90,330,615

  - Marshall Islands                                     840,522                   0             0       840,522

  - U.S. Virgin Islands                               1,186,387             3,313,088      256,219      4,755,694

Mineral Management Service                               132,217                   0             0       132,217

Multi-office                                                        0        325,757             0       325,757

National Park Service                                    109,865                   0             0       109,865

Office of the Secretary                                     3,234                  0             0          3,234

Office of Surface Mining
  Reclamation and Enforcement                            125,251                   0             0       125,251


TOTAL                                               $5,744,590           $102,282,681   $1,660,209   $109,687,480

* Includes monetary impact of indirect cost proposals negotiated.
** Includes non-Federal funds (see Appendix 4).




             Semiannual Report to the Congress: April 1, 2001 - September 30, 2001
                                                                    37
                                  Appendix 4



          Non-Federal Funding Included in Monetary Impact
of Audit Activities During the 6-Month Period Ended September 30, 2001

        No. 2001-I-0290 - "Virgin Islands Lottery, Government of the
        Virgin Islands,” dated May 2001. All of the $ 4,635,694 reported
        as monetary impact represents insular area funds.

        No. 2001-I-0417 - "Loan Programs, Guam Economic
        Development Authority, Government of Guam," dated September
        2001. Of the $10,946,770 reported as monetary impact, $493,906
        represents insular area funds.

        No. 2001-I-0419 - "Qualifying Certificate Program, Guam
        Economic Development Authority, Government of Guam," dated
        September 2001. All of the $79,383,845 reported as monetary
        impact represents insular area funds.




        Semiannual Report to the Congress: April 1, 2001 - September 30, 2001
                                         38
                                                            Appendix 51


                                                                 Table I

                           Inspector General Reports with Questioned Costs*
                                                   No. of                          Questioned                          Unsupported
                                                 Reports**                           Costs                              Costs***
    A. For which no
    management decision had
    been made by the
    commencement of the
    reporting period                                   73                            $176,687,299                          $2,503,796

    B. Which were issued
    during the reporting                               25                                 5,744,590                                      0
    period
        Total (A+B)                                    98                            $182,431,889                          $2,503,796
    C. For which a
    management decision was
    made during the
    reporting period                                   11                               $1,745,190                                      0

       (i) dollar value of
                                                       10                               $1,013,032                                      0
           disallowed costs

       (ii) dollar value of
            costs allowed                               1                                  $732,158                                     0

    D. For which no
    management decision had
    been made by the end of
    the reporting period                               87                            $180,686,699                          $2,503,796

    E. For which no
    management decision was
    made within 6 months of
    issuance                                           73                            $176,687,299                          $2,503,796

    *Includes reports issued to Insular Area governor’s and other Insular Area officials who do not report to the Secretary
    and are not subject to policy, guidance, and administrative oversight established by the Assistant Secretary for Policy,
    Management and Budget.
    ** Report totals cannot be reconciled because some reports have dollar amounts in both the allowed and disallowed categories.
    *** Unsupported costs are included in questioned costs.




1
 The beginning balances for Appendix 5, Tables 1 through 3, are different from the ending balance in the previous semiannual because the Office of
Inspector General has eliminated information on DCAA audits from its database.


                    Semiannual Report to the Congress: April 1, 2001 - September 30, 2001
                                                                       39
                                                      Appendix 5


                                                          Table II

                         Inspector General Reports with Recommendations
                                 that Funds Be Put to Better Use*


                                                                         No. of Reports                        Dollar Value**
A. For which no management decision had been made
by the commencement of the reporting period                                      20                            $210,196,790
B. Which were issued during the reporting period                                 60                              102,282,681***
  Total (A+B)                                                                    80                            $312,479,471
C. For which a management decision was made during
the reporting period                                                             56                               $9,792,468
   (i) dollar value of recommendations that were
       agreed to by management                                                   56                               $9,792,468
  (ii) dollar value of recommendations that were not
       agreed to by management                                                    0                                           0
D. For which no management decision had beenmade by
the end of the reporting period                                                  24                            $302,687,003
E. For which no management decision was made within
6 months of issuance                                                             20                            $210,196,790
* Includes recommendations made to Insular Area governor’s and other Insular Area officials who do not report the Secretary and are not
subject to policy, guidance, and administrative oversight established by the Assistant Secretary for Policy, Management and Budget.
** Includes amounts from preaward audits.
*** Includes amounts from indirect cost proposals negotiated.




                 Semiannual Report to the Congress: April 1, 2001 - September 30, 2001
                                                                40
                                                        Appendix 5


                                                         Table III

                                Inspector General Reports With Lost or
                                    Potential Additional Revenues*

                                                                            No. of Reports**               Dollar Value
   A. For which no management decision had been made
   by the commencement of the reporting period                                         11                     $92,667,711
   B. Which were issued during the reporting period                                     2                        1,660,209
       Total (A+B)                                                                     13                     $94,327,920
   C. For which a management decision was made during
   the reporting period                                                                 2                      $1,918,080
       (i) dollar value of recommendations that were
           agreed to by management                                                      1                          $18,080
      (ii) dollar value of recommendations that were not
          agreed to by management                                                       1                      $1,900,000
   D. For which no management decision had been made
   by the end of the reporting period                                                  12                     $92,409,840
   E. For which no management decision was made within
   6 months of issuance                                                                10                     $90,767,711

 * Includes reports issued to Insular Area governor’s and other Insular Area officials who do not report to the Secretary and are not
 subject to policy, guidance, and administrative oversight established by the Assistant Secretary for Policy, Management, and Budget.
** Report total cannot be reconciled because some report recommendations have dollar amounts in C. and D.




                  Semiannual Report to the Congress: April 1, 2001 - September 30, 2001
                                                                 41
                                           Appendix 6


                      Summary of Reports Over 6 Months Old
                         Pending Management Decisions

This listing includes internal, contract (except preawards), grant, and single audit reports that were
over 6 months old on September 30, 2001 and still pending a management decision. It provides
report number, title, issue date, number of unresolved recommendations, and unresolved amount of
monetary benefits identified in the report.




Internal Audits

Bureau of Indian Affairs
99-I-937       Auditors Report on Bureau of Indian Affairs Consolidated Comparative Financial Statements
               for Fiscal Years 1998 and 1997 (9/24/99) 22 Recommendations Unresolved

Insular Areas

Republic of the Marshall Islands
99-I-952       Marshall Islands Development Bank, Republic of the Marshall Islands (09/30/99)
               4 Recommendations and $382,888 Unresolved

Multi-Office
01-I-0297      Audit Report on the Stripper Oil Well Property Royalty Rate Reduction Program (03/30/01)
               1 Recommendation Unresolved

National Park Service
01-I-0305      Independent Auditors Report on National Park Service Financial Statements for Fiscal Year
               2000 (03/30/01) 1 Recommendation Unresolved

Office of the Secretary
00-I-586       Independent Auditors Report on Departmental Offices Financial Statements for Fiscal Year
               1999 (7/14/00) 1 Unresolved




              Semiannual Report to the Congress: April 1, 2001 - September 30, 2001
                                                   42
                                                                                Appendix 6 (continued)




Office of the Special Trustee for American Indians

99-I-372     Financial Statements for Fiscal Year 1997 for the Office of the Special Trustee for American
             Indians Tribal and other Special Trust Funds and Individual Indian Monies Trust Funds
             Managed by the Office of Trust Funds Management (3/26/99)
             1 Recommendation Unresolved

Contract and Grant Audits
Bureau of Indian Affairs
94-E-784     Costs Claimed By Diversified Business Technologies Corporation Under Contract
             No. CBM000047 (6/10/94) $825,170 Unresolved (circumstances beyond the bureau’s control
             have delayed resolution of the costs)
94-E-919     Costs Claimed By Diversified Business Technologies Corporation Under Contract
             No. CBM000147 (6/30/94) $247,414 Unresolved (circumstances beyond the bureau’s control
             have delayed resolution of the costs)

Bureau of Reclamation
00-E-688     Interstate Electrical Contractor, Claims for Equitable Adjustment Submitted to Bureau of
             Reclamation Under Contract No. 1425-5-CC-40-17910 (09/18/00) $982,917 Unresolved
01-E-0184    Mingus Constructors, Inc., Claim for Equitable Adjustment Submitted to Bureau of
             Reclamation under Contract No. 1425-5-CC-40-17910 (02/14/01) $725,790 Unresolved
01-E-0229    Costs Claimed by Sloat and Associates, Incorporated, under Bureau of Reclamation Contract
             No. 1425-5-CC-40-18140 (02/14/01) $157,964 Unresolved

Fish and Wildlife Service
98-E-198     U.S. Fish and Wildlife Service Federal Aid Grants to Colorado for 2 Fiscal Years Ended
             June 30, 1995 (1/16/98) $1,453,632 Unresolved

Geological Survey

93-E-339     TGS Technology, Incorporated, Closing Statement (12/22/92) $520,235 Unresolved




            Semiannual Report to the Congress: April 1, 2001 - September 30, 2001
                                                  43
Appendix 6 (continued)




Insular Areas

Republic of the Marshall Islands

95-E-0951     Grant and Trust Funds provided for the Rongelap Resettlement Project, Republic of the
              Marshall Islands (5/22/95) $215,960 Unresolved

Virgin Islands

98-E-0098     Claims against the Federal Emergency Management Agency’s Community Disaster Loan,
              Government of the Virgin Islands (11/12/97) $21,700 Unresolved

National Park Service

00-E-289      JCM Control Systems, Incorporated, Costs Billed from January 1, 1997 through July 16,
              1999, Under National Park Service Contract No. 1443CX300094906 (3/24/00) $83,125
              Unresolved
00-E-0607     Harrison and Palmer, Incorporated, Costs Billed Under National Park Service Contract No.
              1443CX300094906 (08/08/00) $52,703 Unresolved
00-E-0706     Southern Insulation, Incorporated, Costs Billed Under National Park Service Contract No.
              1443CX300094906 from November 1, 1996 through June 1, 1999 (9/29/00)
              $86, 262 Unresolved
01-E-0035     Callas Contractors, Incorporated, Costs Billed Under National Park Service Contract No.
              1443CX300094906 from January 1, 1997 through June 1, 1997 (11/07/00)
              $16,425 Unresolved
01-E-0036     Capitol Mechanical Construction, Costs Billed Under National Park Service Contract No.
              1443CX300094906 from January 1, 1997 through June 1, 1999 (11/7/00)
              $98,194 Unresolved
01-E-0244     E.M.S. Consultants, Incorporated, Costs Billed Under National Park Service Contract No.
              1443CX300094906 from May 1, 1996 through June 1, 1999 (02/28/01) $327,330 Unresolved

Single Audits

Bureau of Indian Affairs

96-A-1122     Northwestern Band of the Shoshoni Nation, Fiscal Year Ended December 30, 1994
              (08/15/96) 1 Recommendation and $825,170 Unresolved (circumstances beyond the bureau’s
              control have delayed resolution of the recommendation)
99-A-615      Porcupine School, Fiscal Year Ended June 30, 1997 (6/18/99) 4 Recommendations
              Unresolved




             Semiannual Report to the Congress: April 1, 2001 - September 30, 2001
                                                  44
                                                                              Appendix 6 (continued)



00-A-34      Wounded Knee District School, Fiscal Year Ended June 30, 1997 (11/15/99)
             5 Recommendations Unresolved
00-A-76      Big Pine Paiute Tribe of the Owens Valley, Fiscal Year Ended December 31, 1995 (12/1/99)
             12 Recommendations Unresolved
00-A-109     Seminole Nation of Oklahoma, Fiscal Year Ended September 30, 1995 (12/7/99)
             10 Recommendations Unresolved
00-A-455     Seminole Tribe of Florida, Fiscal Year Ended June 30, 1998 (5/19/00)
             11 Recommendations Unresolved
00-A-459     Enemy Swim Day School, Fiscal Day Ended September 30, 1998 (5/19/00)
             3 Recommendations Unresolved
00-A-578     Iowa Tribe of Oklahoma, Fiscal Year Ended December 31, 1997 (7/14/00)
             4 Recommendations Unresolved
00-A-579     Quartz Valley Indian Reservation, Fiscal Year Ended December 31, 1993 (7/14/00)
             1 Recommendation and $4,579 Unresolved
00-A-580     Quartz Valley Indian Reservation, Fiscal Year Ended December 31, 1994 (7/14/00)
             1 Recommendation and $12,672 Unresolved
01-A-0004    Tunica-Biloxi Tribe of Louisiana, Fiscal Year Ended December 31, 1998 (10/10/00)
             1 Recommendation Unresolved
01-A-0005    Otoe-Missouri Tribe of Indians, Fiscal Year Ended December 31, 1997 (10/10/00)
             1 Recommendation and $161,770 Unresolved
01-A-0203    Quechan Indian Tribe, Fiscal Year Ended December 31, 1998 (01/25/01) 1 Recommendation
             Unresolved
01-A-0215    Shoshone-Bannock School District Number 512, Fiscal Year Ended June 30, 1999 (02/08/01)
             1 Recommendation Unresolved
01-A-0218    Hopland Band of Pomo Indians, Fiscal Year Ended December 31, 1998 (02/08/01)
             1 Recommendation Unresolved
01-A-0256    Coyote Canyon Rehabilitation Center, Inc., and Affiliate, Fiscal Year Ended June 30, 1999
             (03/23/01) 1 Recommendation Unresolved
01-A-0263    Osage Nation, Fiscal Year Ended September 30, 1997 (03/05/01) 1 Recommendation
             Unresolved
01-A-0265    Chilchinbeto Community School, Inc., Fiscal Year Ended June 30, 1999 (03/05/01)
             1 Recommendation Unresolved
01-A-0292    Thlopthlocco Tribal Town, Fiscal Years Ended September 30, 1996 and 1997 (03/27/01)
             1 Recommendation Unresolved
01-A-0299    Porcupine School, Fiscal Year Ended June 30, 1998 (03/29/01) 1 Recommendation $103,603
             Unresolved
01-A-0304    Seneca Nation of Indians, Fiscal Year Ended September 30, 1999 (03/29/01)
             1 Recommendation Unresolved

Fish and Wildlife Service
97-A-993     Virginia, Fiscal Year Ended June 30, 1995 (8/8/97) 2 Recommendations Unresolved
             (unresolved recommendations pertain to National Park Service)
97-A-1180    Wisconsin, Fiscal Year Ended June 30, 1995 (9/5/97) 3 Recommendations and $26,410
             Unresolved (unresolved recommendations pertain to National Park Service)

            Semiannual Report to the Congress: April 1, 2001 - September 30, 2001
                                                45
Appendix 6 (continued)




97-A-1241     South Carolina, Fiscal Year Ended June 30, 1996 (9/17/97) 2 Recommendations Unresolved
              (unresolved recommendations pertain to National Park Service)
98-A-148      North Carolina, Fiscal Year Ended June 30, 1996 (12/2/97) 1 Recommendation Unresolved
98-A-149      Arizona, Fiscal Year Ended June 30, 1996 (12/2/97) 1 Recommendation Unresolved
              (unresolved recommendation pertains to National Park Service)
01-A-0195     State of Utah, Fiscal Year Ended June 30, 1999 (01/29/01) 1 Recommendation and $30,183
              Unresolved
01-A-0196     State of Georgia, Fiscal Year Ended June 30, 1999 (01/29/01) 1 Recommendation
              Unresolved
01-A-0202     State of California, Fiscal Year Ended June 30, 1999 (01/29/01) 1 Recommendation
              Unresolved
01-A-0242     New Hampshire, Fiscal Year Ended June 30, 1998 (02/23/01) 1 Recommendation
              Unresolved

National Park Service
98-A-194      Georgia Trust for Historic Preservation, Incorporated, Fiscal Year Ended March 31, 1997
              (12/24/97) 2 Recommendations Unresolved
98-A-229      National Institute for the Conservation of Cultural Property, Incorporated, Fiscal Year Ended
              December 31, 1996 (1/15/98) 1 Recommendation Unresolved
98-A-627      South Carolina Department of Parks, Recreation and Tourism, Fiscal Year Ended
              June 30, 1996 (8/6/98) 9 Recommendations Unresolved
98-A-687      National Conference of State Historic Preservation Officers, Fiscal Year Ended
              December 31, 1997 (9/25/98) 2 Recommendations Unresolved
00-A-0158     Georgia Trust for Historic Preservation, Incorporated, Fiscal Year Ended March 31, 1998
              (12/17/99) 1 Recommendation Unresolved
00-A-0160     Sainte Genevieve, Missouri, Fiscal Year Ended September 30, 1998 (12/17/99)
              1 Recommendation Unresolved
00-A-0186     Allegheny Ridge Corporation, Fiscal Year Ended June 30, 1997 (01/13/00)
              1 Recommendation Unresolved
01-A-0089     Georgia Trust for Historic Preservation, Fiscal Year Ended March 31, 1999 (12/14/00)
              1 Recommendation Unresolved
01-A-0251     Decatur, Alabama, Fiscal Year Ended September 30, 1997 (03/01/01) 1 Recommendation
              Unresolved

Office of Surface Mining Reclamation and Enforcement
00-A-0087     Sheridan, Wyoming, Fiscal Year Ended June 30, 1998 (11/05/99) 1 Recommendation
              Unresolved
01-A-0201     Commonwealth of Pennsylvania, Fiscal Year Ended June 30, 1999 (01/29/01)
              1 Recommendation and $26,819 Unresolved




             Semiannual Report to the Congress: April 1, 2001 - September 30, 2001
                                                   46
                                                                            Appendix 6 (continued)




Office of the Secretary
00-A-0062    Hawaii, Fiscal Year Ended June 30, 1998 (11/04/99) 1 Recommendation Unresolved
00-A-0099    Pennsylvania State University, Fiscal Year Ended June 30, 1998 (11/19/99)
             1 Recommendation and $2,303 Unresolved




            Semiannual Report to the Congress: April 1, 2001 - September 30, 2001
                                               47
                                              Appendix 7


                    Summary of Internal Reports Over 6 Months
                         Old Pending Corrective Action
         This is a listing of internal reports with management decisions over 6 months old for which corrective
action has not been completed. It provides report number, title, issue date, and the number of
recommendations without final corrective action. These reports continue to be monitored by the Focus
Leader for Management Control and Audit Followup, Assistant Secretary for Policy, Management and
Budget, for completion of corrective action. Note: The Insular Area reports listed pertain to corrective
actions that affect the Department of the Interior funds.


Bureau of Indian Affairs
95-I-598        Bureau of Indian Affairs Principal Financial Statements for Fiscal Years 1993 and
                1994 (2/28/95) 2 Recommendations
95-I-1402       Wapato Irrigation Project, Bureau of Indian Affairs (9/30/95) 2 Recommendations
96-I-641        Indian Irrigation Projects, Bureau of Indian Affairs (3/29/96) 12 Recommendations
97-I-771        General Controls Over Automated Information Systems, Operations Service Center, Bureau
                of Indian Affairs (4/30/97) 5 Recommendations
97-I-834        Bureau of Indian Affairs Consolidated Financial Statements for Fiscal Years 1995 and 1996
                (5/9/97) 1 Recommendation
98-I-483        Followup of General Controls Over Automated Information Systems, Operations Service
                Center, Bureau of Indian Affairs (6/10/98) 4 Recommendations
98-I-703        Agricultural Leasing and Grazing Activities, Fort Peck Agency, Bureau of Indian Affairs
                (9/30/98) 2 Recommendations
99-I-937        Auditors Report on Bureau of Indian Affairs Consolidated Comparative Financial Statements
                for Fiscal Years 1998 and 1997 (9/24/99) 1 Recommendation
00-I-597        Independent Auditors Report on Bureau of Indian Affairs Financial Statement for Fiscal Year
                1999 (7/28/00) 7 Recommendations
01-I-237        Construction Costs of Chief Leschi School, Constructed by the Puyallup Tribe Under Bureau
                of Indian Affairs Replacement School Construction (3/5/01) 1 Recommendation

Bureau of Land Management
92-I-828        Onshore Geophysical Exploration Program (5/26/92) 2 Recommendations
95-I-379        Followup of Recommendations Relating to Bureau of Land Management User Charges for
                Mineral-Related Document Processing (1/23/95) 2 Recommendations
95-I-747        Right-Of-Way Grants, Bureau of Land Management (3/31/95) 6 Recommendations
97-I-1104       Management of Herd Levels, Wild Horse and Burro Program, Bureau of Land Management
                (08/12/97) 1 Recommendation
97-I-1300       Issuance of Mineral Patents, Bureau of Land Management and Office of the Solicitor
                (9/30/97) 1 Recommendation
98-I-419        The Adopt-A-Horse Program, Bureau of Land Management (4/30/98)
                1 Recommendation


               Semiannual Report to the Congress: April 1, 2001 - September 30, 2001
                                                      48
Appendix 7 (continued)


99-I-677      Rangelands Improvement Program, Bureau of Land Management (7/28/99)
              1 Recommendation
99-I-808      Cultural Resource Management, Bureau of Land Management (9/3/99)
              2 Recommendations
00-I-448      Bureau Of Land Management Financial Statements for Fiscal Years 1998 And 1999
              (5/18/00) 2 Recommendations
01-I-274      Independent Auditors Report on Bureau of Land Management Financial Statements for
              Fiscal Year 2000 (3/8/01) 2 Recommendations

Bureau of Reclamation
94-I-930      Irrigation of Ineligible Lands (7/11/94) 3 Recommendations
95-I-870      Recreation Management Activities at Selected Sites (5/17/95) 2 Recommendations
98-I-250      Followup of Recovery of Irrigation Investment Costs, Bureau of Reclamation (2/13/98)
              3 Recommendations
98-I-383      Central Valley Project Restoration Fund, Bureau of Reclamation (3/31/98)
              2 Recommendations
98-I-623      Followup of Mainframe Computer Policies and Procedures, Administrative Service Center,
              Bureau of Reclamation (8/20/98) 5 Recommendations
99-I-133      Identification of Unneeded Acquired Lands, Bureau of Reclamation (12/21/98)
              2 Recommendations
99-I-588      Lower Brule Sioux Rural Water System, Mni Wiconi Rural Water Supply Project, Bureau of
              Reclamation (6/24/99) 1 Recommendation
99-I-627      Oglala Sioux Rural Water Supply System, Mni Wiconi Rural Water Supply Project, Bureau
              of Reclamation (6/29/99) 4 Recommendations
00-I-270      Followup of Recommendations Concerning Repayment of Municipal and Industrial Water
              Supply Investment Costs, Bureau of Reclamation (3/31/00) 1 Recommendation
00-I-376      Concessions Managed by the Bureau of Reclamation (5/8/00) 5 Recommendations

Fish and Wildlife Service
95-I-376      Concession Fees, U.S. Fish and Wildlife Service (1/17/95) 1 Recommendation
97-I-1302     Partners for Wildlife Habitat Restoration Program, U.S. Fish and Wildlife Service (9/29/97)
              3 Recommendations
97-I-1305     Automated Law Enforcement System, U.S. Fish and Wildlife Service (9/30/97)
              2 Recommendations
99-I-162      Land Acquisition Activities, U.S. Fish and Wildlife Service (12/29/98)
              1 Recommendation
00-I-050      Miscellaneous Receipts, U.S. Fish and Wildlife Service (11/9/99) 6 Recommendations
00-I-226      Deferred Maintenance, U.S. Fish and Wildlife Service (3/10/00) 3 Recommendations




             Semiannual Report to the Congress: April 1, 2001 - September 30, 2001
                                                   49
                                                                               Appendix 7 (continued)



Geological Survey
99-I-381     Additional Controls Needed Over the Data Processing Environment at the U.S. Geological
             Survey Reston Enterprise Data Services Center (3/25/99)
             2 Recommendations
99-I-404     U.S. Geological Survey Financial Statements for Fiscal Years 1997 and 1998 (3/31/99)
             1 Recommendation

Insular Areas
Republic of the Marshall Islands
99-I-952     Marshall Islands Development Bank, Republic of the Marshall Islands (9/30/99)
             3 Recommendations

Mineral Management Service
97-I-1042    Royalty Management Program’s Automated Information Systems, Minerals Management
             Service (7/31/97) 1 Recommendation
00-I-279     Small Refiners Program, Minerals Management Service (3/27/00) 1 Recommendation
00-I-333     Internal Controls Over the Accounting System, Financial Management Branch, Minerals
             Management Service (3/31/00) 1 Recommendation
00-I-647     General and Application Controls Over the Technical Information Management System,
             Offshore Minerals Management, Minerals Management Service (8/31/00)
             7 Recommendations

Multi-Office
96-I-1255    Selected Activities of the Royalty Management System, Minerals Management Service
             (9/30/96) 2 Recommendations
96-I-1267    Inspection and Enforcement Program and Selected Related Activities, Bureau of Land
             Management (9/30/96) 4 Recommendations
99-I-782     Processing Notifications for the Stripper Oil Well Property Royalty Rate Reduction Program,
             Minerals Management Service (8/31/99) 1 Recommendation
00-I-300     Supporting Documentation for Operators Participating in the Stripper Oil Well Property
             Royalty Rate Reduction Program, Bureau of Land Management and Minerals Management
             Service (3/27/00) 2 Recommendations

National Park Service
97-I-908     Automated Law Enforcement System, National Park Service(6/23/97) 1 Recommendation
98-I-406     Followup of Recommendations Concerning Utility Rates Imposed by the National Park
             Service (4/15/98) 5 Recommendations
99-I-518     Land Acquistion Activities, National Park Service (5/28/99) 2 Recommendations



            Semiannual Report to the Congress: April 1, 2001 - September 30, 2001
                                                 50
Appendix 7 (continued)




99-I-959      Deferred Maintenance, National Park Service (9/30/99) 1 Recommendation
00-I-621      Independent Auditor’s Report of National Park Service Financial Statements for Fiscal Year
              1999 (8/8/00) 2 Recommendations
01-I-116      Collection and Use of Concession Fees (1/11/01) 1 Recommendation
01-I-305      Independent Auditors Report on the National Park Service Financial Statements for Fiscal
              Year 2000 (3/30/01) 28 Recommendations

Office of the Secretary
98-I-712      Receipt and Expenditure of Funds by the Utah Reclamation Mitigation and Conservation
              Commission for Fiscal Years 1996 and 1997 (9/30/98) 7 Recommendations

Office of the Special Trustee for American Indians
97-I-196      Statement of Assets and Trust Fund Balances on September 30, 1995, of the Trust Funds
              Managed by the Office of Trust Funds Management (12/13/96) 16 Recommendations
97-I-1167     Judgment Funds Awarded to the Turtle Mountain Band of Chippewa Indians (9/22/97)
              1 Recommendation
97-I-1168     Judgment Funds Awarded to the Navajo Nation (9/22/97) 1 Recommendation
97-I-1169     Judgment Funds Awarded to the Papago Tribe of Arizona (9/15/97) 2 Recommendations
98-I-206      Financial Statements for Fiscal Year 1996 for Office of the Special Trustee for American
              Indians Tribal, Individual Indian Monies and other Special Trust Funds Managed by the
              Office of Trust Funds Management (1/23/98) 12 Recommendations
99-I-372      Financial Statements for Fiscal Year 1997 for Office of the Special Trustee for American
              Indians Tribal, Individual Indian Monies and other Special Trust Funds Managed by the
              Office of Trust Funds Management (3/26/99) 9 Recommendations
00-I-434      Independent Auditors Report on the Financial Statements for Fiscal Years 1998 and 1999 for
              the Office of the Special Trustee for American Indians Tribal and other Special Trust Funds
              and Individual Indian Monies Trust Funds Managed by the Office of Trust Funds
              Management (5/22/00) 1 Recommendation
01-I-205      Independent Auditors Report on the Financial Statements for Fiscal Years 1999 and 1998 for
              the Office of the Special Trustee for American Indians Tribal and other Special Trust Funds
              and Individual Indian Monies Trust Funds Managed by the Office of Trust Funds
              Management (1/31/01) 2 Recommendations




             Semiannual Report to the Congress: April 1, 2001 - September 30, 2001
                                                  51
                                           Appendix 8


                          Summary of Insular Area Reports
                               Over 6 Months Old
Note: These insular area reports contain recommendations made specifically to the insular area
governors and other Insular Area officials, who do not report to the Secretary and are not subject to
the policy, guidance, and administrative oversight established by the Assistant Secretary for Policy,
Management and Budget.


Internal Audits
Commonwealth of the Northern Mariana Islands
94-I-936       Followup of Recommendations Concerning the Economic Development Loan Fund,
               Commonwealth Development Authority (7/18/94) 2 Recommendations Unresolved
96-I-596       Management of Public Land, Commonwealth of the Northern Mariana Islands (3/20/96)
               6 Recommendations and $145,877,257 Unresolved
99-I-147       Management of Federal Grants, Public School System, Commonwealth of the Northern
               Mariana Islands (12/15/98) 1 Recommendation and $17,044 Unresolved

Guam

98-I-264       Legislature Capital Improvement Fund, Guam Legislature, Government of Guam (2/20/98)
               4 Recommendations and $4,159,110 Unresolved
99-I-13        On-Call Substitute Teachers, Department of Education, Government of Guam (10/21/98)
               1 Recommendation Unresolved
99-I-255       Federal Grant Program Travel Activities, Department of Education, Government of Guam
               (2/25/99) 7 Recommendations and $47,879 Unresolved
99-I-455       Extended Day Program, Department of Education, Government of Guam (5/11/99)
               8 Recommendations and $2,661,634 Unresolved

Republic of the Marshall Islands

94-I-21        Capitol Relocation Project, Republic of the Marshall Islands (10/18/93) 2 Recommendations
               Unresolved

U.S. Virgin Islands

91-I-467       Followup of Recommendations Contained in the Report on the Road Fund, Government of
               the Virgin Islands (2/19/91) 1 Recommendation Unresolved
93-I-363       Inmate Care, Rehabilitation, and Safety, Bureau of Corrections, Government of the Virgin
               Islands (12/31/92) 10 Recommendations Unresolved
93-I-572       Supply and Equipment Management, Department of Education, Government of the Virgin
               Islands (2/19/93) 9 Recommendations and $310,000 Unresolved

              Semiannual Report to the Congress: April 1, 2001 - September 30, 2001
                                                   52
                                                                              Appendix 8 (continued)




93-I-670    Personnel, Property Management, and Procurement Practices, Bureau of Corrections,
            Government of the Virgin Islands (3/11/93) 14 Recommendations and $265,823 Unresolved
96-E-828    Accounting Controls for Disaster Assistance Funds, Police Department, Government of the
            Virgin Islands (5/31/96) 2 Recommendations Unresolved
97-I-40     Division of Agriculture, Department of Economic Development and Agriculture,
            Government of the Virgin Islands (10/21/96) 8 Recommendations and $90,000 Unresolved
97-E-189    Subgrant Administration for Disaster Assistance Funds, Office of Management and Budget,
            Government of the Virgin Islands (11/26/96) 2 Recommendations Unresolved
97-E-239    Procurement Practices for Hurricane-Related Debris Removal, Department of Public Works,
            Government of the Virgin Islands (12/17/96) 1 Recommendation Unresolved
97-I-243    Workmen’s Compensation Program, Government of the Virgin Islands (12/30/96)
            15 Recommendations and $2,530,000 Unresolved
97-E-279    Accounting Controls for Disaster Assistance Funds, Virgin Islands Water and Power
            Authority (1/7/97) 3 Recommendations Unresolved
98-E-98     Expenditures Claimed Against the Federal Emergency Management Agency’s Community
            Disaster Loan, Government of the Virgin Islands (11/12/97) 4 Recommendations and
            $21,700 Unresolved
98-I-188    Internal Revenue Taxes, Bureau of Internal Revenue, Government of the Virgin Islands
             (12/30/97) 1 Recommendation Unresolved
98-I-191    Building Permit Fees, Department of Planning and Natural Resources, Government of the
            Virgin Islands (12/30/97) 7 Recommendations and $143,446 Unresolved
98-I-263    Sewage System User Fees, Government of the Virgin Islands (2/20/98) 5 Recommendations
            and $897,212 Unresolved
98-I-384    Hurricane-Related Contracting, Department of Education, Government of the Virgin Islands
            (3/31/98) 4 Recommendations and $5,418 Unresolved
98-I-468    Followup of Recommendations Relating to the Bureau of Corrections, Department of Justice,
            Government of the Virgin Islands (5/29/98) 6 Recommendations Unresolved
98-I-670    Interfund Loans and Federal Grant Balances, Government of the Virgin Islands (9/9/98)
            14 Recommendations and $158,100,000 Unresolved
99-I-365    Followup of Recommendations Relating to Personnel Management Practices, Division of
            Personnel, Government of the Virgin Islands (3/26/99) 3 Recommendations and
            $24,300,000 Unresolved
01-I-107    Administrative Functions, Legislature of the Virgin Islands, Government of the Virgin
            Islands (12/29/00) 8 Recommendations and $1,320,293 Unresolved
01-I-303    Billing and Collection Functions, Virgin Islands Port Authority, Government of the Virgin
            Islands (3/30/01) 9 Recommendations and $2,086,162 Unresolved

Contracts
Republic of the Marshall Islands
95-E-951    Grant and Trust Funds Provided for the Rongelap Resettlement Project, Republic of the
            Marshall Islands (5/22/95) $215,960 Unresolved


           Semiannual Report to the Congress: April 1, 2001 - September 30, 2001
                                                53
Appendix 8 (continued)



Single Audits
American Samoa
01-A-245      American Samoa Government, Fiscal Year Ended September 30, 1995 (2/28/01)
              1 Recommendation Unresolved

Commonwealth of the Northern Mariana Islands
91-A-731      Commonwealth Utilities Corporation, Fiscal Year Ended September 30, 1988 (4/26/91)
              15 Recommendations and $6,087,882 Unresolved
91-A-803      Mariana Islands Housing Authority, Fiscal Year Ended September 30, 1986 (5/7/91)
              1 Recommendation and $1,537,321 Unresolved
91-A-823      Mariana Islands Housing Authority, Fiscal Year Ended September 30, 1987 (5/10/91)
              1 Recommendation and $455,857 Unresolved
91-A-824      Mariana Islands Housing Authority, Fiscal Year Ended September 30, 1988 (5/10/91)
              1 Recommendation and $196,593 Unresolved
92-A-1179     Mariana Islands Housing Authority, Fiscal Year Ended September 30, 1989 (8/13/92)
              1 Recommendation and $168,711 Unresolved
93-A-110      Mariana Islands Housing Authority, Fiscal Year Ended September 30, 1990 (10/26/92)
              1 Recommendation and $124,450 Unresolved
93-A-225      Mariana Islands Housing Authority, Fiscal Year Ended September 30, 1991 (11/19/92)
              1 Recommendation and $1,119,377 Unresolved
93-A-1563     Commonwealth Development Authority, Fiscal Year Ended September 30, 1988 (9/13/93)
              52 Recommendations and $4,998,398 Unresolved
94-A-525      Commonwealth Development Authority, Fiscal Year Ended September 30, 1989 (4/15/94)
              45 Recommendations and $6,078,308 Unresolved
94-A-574      Commonwealth Utilities Corporation, Fiscal Year Ended September 30, 1990 (5/6/94)
              61 Recommendations and $166,509 Unresolved
94-A-818      Commonwealth Utilities Corporation, Fiscal Year Ended September 30, 1991 (6/16/94)
              42 Recommendations Unresolved
94-A-836      Commonwealth of the Northern Mariana Islands, Fiscal Year Ended September 30, 1993
              (6/20/94) 59 Recommendations Unresolved
94-A-1083     Mariana Islands Housing Authority, Fiscal Year Ended September 30, 1993 (8/3/94)
              5 Recommendations Unresolved
95-A-784      Commonwealth Ports Authority, Fiscal Year Ended September 30, 1994 (4/12/95)
              10 Recommendations Unresolved
97-A-851      Northern Mariana College, Fiscal Year Ended September 30, 1993 (5/16/97)
              1 Recommendation Unresolved
98-A-339      Commonwealth of the Northern Mariana Islands, Fiscal Year Ended September 30, 1996
              (3/11/98) 1 Recommendation and $11,176,309 Unresolved
98-A-355      Commonwealth of the Northern Mariana Islands Public School System, Fiscal Year Ended
              September 30, 1995 (3/12/99) 1 Recommendation Unresolved
99-A-396      Commonwealth of the Northern Mariana Islands, Fiscal Year Ended September 30, 1997
              (3/29/99) 1 Recommendation and $595,151 Unresolved

             Semiannual Report to the Congress: April 1, 2001 - September 30, 2001
                                                54
                                                                              Appendix 8 (continued)



00-A-176    Commonwealth of the Northern Mariana Islands, Fiscal Year Ended September 30, 1998
            (1/6/00) 1 Recommendation and $364,109 Unresolved
00-A-487    Karidat, Fiscal Year Ended September 30, 1994 (6/6/00) 1 Recommendation Unresolved
00-A-505    Karidat, Fiscal Year Ended September 30, 1995 (6/13/00) 1 Recommendation Unresolved
01-A-210    Karidat, Fiscal Year Ended September 30, 1996 (2/1/01) 1 Recommendation Unresolved
01-A-212    Karidat, Fiscal Year Ended September 30, 1997 (2/7/01) 1 Recommendation Unresolved
01-A-213    Karidat, Fiscal Year Ended September 30, 1998 (2/7/01) 1 Recommendation Unresolved
01-A-269    Commonwealth of the Northern Mariana Islands, Fiscal Year Ended September 30, 1999
            (3/8/01) 1 Recommendation and $146,174 Unresolved

Federated States of Micronesia
96-A-482    Federated State of Micronesia National Government, Fiscal Year Ended September 30, 1994
            (2/29/96) 1 Recommendation and $57,900 Unresolved
97-A-244    Federated States of Micronesia National Government, Fiscal Year Ended September 30, 1995
            (12/23/96) 1 Recommendation and $166,523 Unresolved
98-A-386    Federated States of Micronesia National Government, Fiscal Year Ended September 30, 1996
            (3/31/98) 1 Recommendation and $109,560 Unresolved
99-A-189    Federated States of Micronesia National Government, Fiscal Year Ended September 30, 1997
            (1/12/99) 1 Recommendation Unresolved
00-A-139    Federated States of Micronesia National Government, Fiscal Year Ended September 30, 1998
            (12/10/99) 1 Recommendation and $97,396 Unresolved

Chuuk

91-A-505    Chuuk State Government, Fiscal Year Ended September 30, 1989 (2/20/91)
            1 Recommendation and $665,817 Unresolved
92-A-519    Chuuk State Government, Fiscal Year Ended September 30, 1990 (2/25/92)
            1 Recommendation and $1,940,938 Unresolved
94-A-374    State of Chuuk, Federated States of Micronesia, Fiscal Year Ended September 30, 1992
            (2/28/94) 15 Recommendations Unresolved

Kosrae

94-A-367    State of Kosrae, Federated States of Micronesia, Fiscal Year Ended September 30, 1992
            (2/24/94) 9 Recommendations Unresolved

Pohnpei

91-A-398    Pohnpei State Government, Fiscal Year Ended September 30, 1989 (2/4/91)
            1 Recommendation and $98,216 Unresolved
94-A-527    State of Pohnpei, Federated States of Micronesia, Fiscal Year Ended September 30, 1992
            (4/19/94) 21 Recommendations and $2,764 Unresolved



           Semiannual Report to the Congress: April 1, 2001 - September 30, 2001
                                                55
Appendix 8 (continued)



Yap

94-A-371      State of Yap, Federated States of Micronesia, Fiscal Year Ended September 30, 1992
              (2/25/94) 22 Recommendations Unresolved

Guam
00-A-195      Government of Guam, Fiscal Year Ended September 30, 1998 (1/25/00) 1 Recommendation
              and $2,305,544 Unresolved
01-A-289      Government of Guam, Fiscal Year Ended September 30, 1999 (3/26/01) 1 Recommendation
              and $3,147,789 Unresolved

Republic of Palau
92-A-368      Palau Community Action Agency, Fiscal Year Ended September 30, 1990 (1/24/92)
              1 Recommendation and $2,593 Unresolved
92-A-885      Republic of Palau, Fiscal Year Ended September 30, 1989 (6/5/92) 1 Recommendation and
              $40,262 Unresolved
93-A-1053     Palau Community Action Agency, Fiscal Year Ended September 30, 1991 (5/11/93)
              1 Recommendation Unresolved
93-A-1629     Republic of Palau, Fiscal Year Ended September 30, 1990 (9/30/93) 1 Recommendation and
              $401,843 Unresolved
94-A-499      Republic of Palau, Fiscal Year Ended September 30, 1991 (4/6/94) 1 Recommendation and
              $517,693 Unresolved
94-A-882      Republic of Palau, Fiscal Year Ended September 30, 1992 (6/27/94) 1 Recommendation and
              $4,085 Unresolved
98-A-130      Republic of Palau, Fiscal Year Ended September 30, 1996 (11/19/97) 1 Recommendation
              Unresolved
98-A-176      Palau Community Action Agency, Fiscal Year Ended September 30, 1994 (12/12/97) 1
              Recommendation and $4,769 Unresolved
98-A-177      Palau Community Action Agency, Fiscal Year Ended September 30, 1995 (12/12/97)
              1 Recommendation and $43,843 Unresolved
99-A-37       Republic of Palau, Fiscal Year Ended September 30, 1997 (10/20/98) 1 Recommendation
              and $1,029,762 Unresolved
99-A-333      Palau Community Action Agency, Fiscal Year Ended September 30, 1996 (3/1/99)
              1 Recommendation and $2,310 Unresolved
99-A-960      Palau Community Action Agency, Fiscal Year Ended September 30, 1997 (9/30/99)
              1 Recommendation Unresolved
00-A-000      Republic of Palau, Fiscal Year Ended September 30, 1998 (10/9/99) 1 Recommendation and
              $424,084 Unresolved
00-A-393      Palau Community Action Agency, Fiscal Year Ended September 30, 1998 (9/11/00)
              1 Recommendation Unresolved
01-A-063      Palau Community College, Fiscal Year Ended September 30, 1999 (12/14/00)
              1 Recommendation Unresolved
01-A-261      Palau Community Action Agency, Fiscal Year Ended September 30, 1999 (3/5/01)
              1 Recommendation Unresolved
             Semiannual Report to the Congress: April 1, 2001 - September 30, 2001
                                                  56
                                                                              Appendix 8 (continued)




Republic of the Marshall Islands
01-A-029    Republic of the Marshall Islands, Fiscal Year Ended September 30, 1999 (10/30/00)
            1 Recommendation and $2,298,000 Unresolved

U.S. Virgin Islands
98-A-154    Government of the Virgin Islands, Fiscal Year Ended September 30, 1994 (12/2/97)
            1 Recommendation and $632, 247 Unresolved




           Semiannual Report to the Congress: April 1, 2001 - September 30, 2001
                                                57
                                              Appendix 9

                   Statutory and Administrative Responsibilities
The Inspector General Act of 1978 as amended (Public Law 95-452) sets forth specific requirements for
semiannual reports to be made to the Secretary for transmittal to the Congress. A selection of other
statutory and administrative responsibilities and criminal and civil investigative authorities of the OIG
follows:

                                     Statutory Audit Responsibilities
Statutory audit responsibilities include:
 P.L. 96-510        Comprehensive Environmental Response, Compensation and Liability Act of 1980
                     (Superfund)
 P.L. 97-357        Insular Areas Act of 1982
 P.L. 99-499        Superfund Amendments and Reauthorization Act of 1986
 P.L. 101-576       Chief Financial Officers Act of 1990
 P.L. 103-382       Improving American Schools Act of 1994
 P.L. 104-156       Single Audit Act Amendments of 1996
 P.L. 104-208       Federal Financial Management Improvement Act of 1996
 P.L. 104-316       General Accounting Office Act of 1996, Section 108, "To Require DOI-OIG
                    To Audit the Central Utah Project Cost Allocation"
 P.L. 105-277       Office of National Drug Control Policy Reauthorization Act of 1998
 P.L. 106-398       Government Information Security Reform Act, Title X, subtitle G of the Defense
                    Authorization Act
 P.L. 106-408       Fish and Wildlife Programs Improvement and National Wildlife Refuge System
                    Centennial Act of 2000
 P.L. 106-554       Consolidated Appropriations Act, 2001

                                     Administrative Responsibilities
Office of Management and Budget circulars and bulletins:
     A-50           "Audit Followup"
     A-87           "Cost Principles for State, Local, and Indian Tribal Governments"
     A-123          "Management Accountability and Control"
     A-131          "Value Engineering"
     A-133          "Audits of States, Local Governments, and Non-Profit Organizations"
     01-02          "Audit Requirements for Federal Financial Statements" (Bulletin)
     01-09          "Form and Content of Agency Financial Statements" (Bulletin)

                             Criminal and Civil Investigative Authorities
Criminal investigative authorities include:
     - Title 18, United States Code, section on crime and criminal procedures as they pertain to
       OIG=s oversight of DOI programs and employee misconduct.

Civil and administrative investigative authorities include civil monetary penalty authorities such as:
     - Title 31, United States Code, Section 3801 et seq., the Program Fraud Civil Remedies Act.
     - Title 31, United States Code, Section 3729-3733, the False Claims Act.

               Semiannual Report to the Congress: April 1, 2001 - September 30, 2001
                                                     58
                                       Appendix 10



                                                                                     Page
Inspector General Act of 1978, as amended

Section 4(a)(2)         Review of Legislation and Regulations                       N/A*

Section 5(a)(1)         Significant Problems, Abuses, and Deficiencies               3-21

Section 5(a)(2)         Recommendations for Corrective Action with Respect
                        to Significant Problems, Abuses, and Deficiencies            3-21

Section 5(a)(3)         Significant Recommendations from Agency's Previous
                        Reports on which Corrective Action has not been
                        Completed                                                   48-51

Section 5(a)(4)         Matters Referred to Prosecutive Authorities and Resulting
                        Convictions                                                     ii

Section 5(a)(5)         Matters Reported to the Head of the Agency                  N/A*

Section 5(a)(6)         List of Audit Reports Issued during the Reporting Period    23-30

Section 5(a)(7)         Summary of Significant Reports                               3-21

Section 5(a)(8)         Statistical Table - Questioned Costs                           39

Section 5(a)(9)         Statistical Table - Recommendations that Funds be
                        Put to Better Use                                              40

Section 5(a)(10)        Summary of Audit Reports Issued before the
                        Commencement of the Reporting Period for which
                        no Management Decision has been made                        42-47

Section 5(a)(11)        Significant Revised Management Decisions made
                        during the Reporting Period                                 N/A*

Section 5(a)(12)        Significant Management Decisions with which the
                        Inspector General is in Disagreement                        N/A*

Section 5(a)(13)        Information Described Under Section 05(b) of the Federal
                        Financial Management Improvement Act of 1996                N/A*




*N/A: Nothing to report this period.




            Semiannual Report to the Congress: April 1, 2001 - September 30, 2001
                                               59
                                  General Information




Send Requests for Publications to:


U.S. Department of the Interior        (202) 219-3841
Office of Inspector General
1849 C Street, NW
Mail Stop 5341, MIB
Washington, D.C. 20240



Facsimile Number:                      (202) 208-4998



World Wide Web Site:                   www.oig.doi.gov
                           Illegal or Wasteful Activities
                               Should be Reported to
                           the Office of Inspector General


                             Internet/E-Mail Address
                  http://www.oig.doi.gov/investigations/hotline.shtml



                     Within the Continental United States

U.S. Department of the Interior                     Our 24-hour
Office of Inspector General                         Telephone HOTLINE
1849 C Street, N.W.                                 1-800-424-5081 or
Mail Stop 5341, MIB                                 (202) 208-5300
Washington, D.C. 20240

                                                    Facsimile Number
                                                    202-208-6023

                                                    TDD for hearing impaired
                                                    (202) 208-2420

                     Outside the Continental United States


                                  Pacific Area Office

U.S. Department of the Interior                     (671) 472-7279
Office of Inspector General
Guam Field Office
415 Chalan San Antonio
Baltej Pavilion, Suite 306
Tamuning, Guam 96911

                              Caribbean Area Office

U.S. Department of the Interior                     (340) 774-8300
Office of Inspector General
Federal Building & U.S. Courthouse
Veterans Drive, Room 207
St. Thomas, VI 00802
